<html>
<title> - CHALLENGES FACING FIRST RESPONDERS IN BORDER COMMUNITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
        CHALLENGES FACING FIRST RESPONDERS IN BORDER COMMUNITIES

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                     COMMUNICATIONS, PREPAREDNESS,
                              AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2007

                               __________

                           Serial No. 110-56

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-930                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

        Jessica Herra-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

LORETTA SANCHEZ, California          CHARLES W. DENT, Pennsylvania
NORMAN D. DICKS, Washington          MARK E. SOUDER, Indiana
NITA M. LOWEY, New York              MIKE ROGERS, Alabama
ELEANOR HOLMES NORTON, District of   BOBBY JINDAL, Louisiana
Columbia                             DAVID DAVIS, Tennessee
DONNA M. CHRISTENSEN, U.S. Virgin    PETER T. KING, New York (Ex 
Islands                              Officio)
BOB ETHERIDGE, North Carolina
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     2
The Donna M. Christensen, a Delegate in Congress From the U.S. 
  Virgin Islands.................................................    35
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    33
The Honorable Rick Larsen, a Representative in Congress From the 
  State of Washington............................................     3

                               Witnesses

Mr. Bill Elfo, Sheriff, Whatcom County Sheriff's Office, 
  Washington State:
  Oral Statement.................................................    12
  Prepared Statement.............................................    15
Mr. Mike Kessler, Homeland Security Coordinator, The Confederated 
  Tribes of the Colville Reservation:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
Mr. Christopher H. Lombard, Communications/Special Operations, 
  Seattle Fire Department:
  Oral Statement.................................................    21
  Prepared Statement.............................................    24
Ms. Leesa Berens Morrison, Director, Arizona Department of 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
Chief Louis F. Sosa, Jr., Fire Chief, Laredo, Texas:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11

                               Appendixes

A. Supplemental Testimony:
  Hector Gonzalez, M.D...........................................    39
B. US-Mexico Border Public Safety and Public Health Response.....    43
C. Detailed Statement of Chief Sosa..............................    45
D. For the Record:
    Questions and Responses:
      Responses from Mr. Bill Elfo...............................    49
      Responses from Mr. Christopher Lombard.....................    51
      Responses from Ms. Leesa Berens Morrison...................    56


                   CHALLENGES FACING FIRST RESPONDERS
                         IN BORDER COMMUNITIES

                              ----------                              


                        Thursday, July 12, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:02 p.m., in 
room 1539, Longworth House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Christensen, Etheridge, 
and Dent.
    Also Present: Representatives Reichart and Larsen of 
Washington.
    Mr. Cuellar. The Subcommittee on Emergency Communications, 
Preparedness and Response will come to order.
    The subcommittee is meeting today to receive testimony 
regarding the unique challenges that first responders face in 
the border communities, given their expanded responsibilities 
in this post-9/11 world.
    The Chair also would like to acknowledge that a member of 
the committee who does not sit on the subcommittee, Mr. 
Reichert, has asked to participate in today's hearing. In 
addition, while he doesn't sit in the subcommittee or the full 
committee, Mr. Larsen, the gentleman also from the State of 
Washington may join us here today and will be introducing his 
witness, the witness from his particular state. Consistent with 
its rules and the practices of the committee, we are pleased to 
honor their requests.
    I now ask unanimous consent to allow Representatives Larsen 
and Reichert to sit here to question the witnesses of today's 
hearing.
    Without objection, it is so ordered.
    Again, good afternoon. First, on behalf of the members of 
the subcommittee, let me welcome our panel of witnesses, who 
work together to protect our citizens every day from any and 
all threats they may face. We applaud you for your efforts. We 
are glad that you are all here today; we look forward to 
hearing from you today, the responders from both the northern 
and the southern border regions to discuss challenges you face 
in your communities and figure out ways to improve the 
coordination of the emergency preparedness and response 
efforts.
    The United States shares nearly 6,000 miles of border with 
Canada and the Republic of Mexico. The communities along these 
borders vary in population and size and resources, and several 
points along the borders are major points of entry to our 
country.
    You are uniquely positioned to address our preparedness 
efforts in border communities and can provide Congress with the 
insight needed to provide Federal policies. I am especially 
interested in hearing the perspective from different folks. You 
know, we have got folks from my hometown in Laredo; we have got 
folks from the northern part of the country. And again, you 
know, whether it is Arizona or the State of Washington, other 
places, we have folks who are here.
    Again, we are looking forward to our witnesses both from 
the southern part of the United States and the northern part of 
the United States, so they can share their unique experiences 
and their best practices with us. We hope to gain an 
understanding from our witnesses of the resources available to 
their agencies, the existence of interstate and cross-border 
mutual aid agreements and their emergency communications 
capabilities.
    It is unsettling that after the devastating Oklahoma City 
bombing and the 9/11 attacks and Hurricanes Katrina and Rita, 
there is still an outstanding need for improvement in emergency 
communications. This is not a new vulnerability to us. Fire 
fighters, police and other emergency responders can cannot 
communicate during times of emergency.
    It also greatly concerns us that our first responders are 
not being given the tools necessary to protect the American 
public.
    Not only are our first responders called to duty in the 
local communities, they also have a difficult task of taking 
part in Federal activities that occur in these border regions. 
This additional responsibility puts enormous strains on 
personnel, equipment and greatly exhausts our critical 
resources needed to adequately provide protection to the 
American people.
    I also look forward to examining the processes that are 
needed to effectively share critical information along and 
across the border. We have learned that oftentimes local law 
enforcement personnel aren't receiving the information 
necessary to actively deter threats; this is again a major 
concern for the committee.
    Let us agree to continue this dialogue as members of this 
committee, and again we value the testimony that you are going 
to give us. Together we must ensure that the American people 
are protected from threats, especially the most vulnerable 
areas of the country, the border. I also want to thank again 
the witnesses for their testimony.
    The Chair now recognizes the ranking member of the 
subcommittee, the gentleman from Pennsylvania, Mr. Dent, for an 
opening statement.
    Mr. Dent. Thank you, Mr. Chairman.
    And I just wanted to thank all of you for coming here 
today.
    As the Nation has debated border security and immigration 
reform over the last several years, and especially recently, we 
have touched on the impact that our unsecured borders have on 
our border communities.
    I have had the opportunity to visit Laredo, Texas, and had 
the opportunity to do that last year with Mr. Cuellar and Chief 
Sosa. While some communities have experienced a rise in violent 
crime associated with border crossings, this may impact not 
only law enforcement but also the public health system and 
emergency medical services.
    Across the country, communities rely on their local police, 
fire fighters and EMS providers to protect them from threats 
and respond to emergencies. After the terrorist attacks of 
September 11, this country increasingly asked these individuals 
to take on new responsibilities for homeland security. And 
while these responsibilities certainly proved challenging to 
the first responders across the country, those in border 
communities may face even greater challenges on a daily basis.
    For instance, during these hot summer months, many who 
attempt to cross the southern border illegally may succumb to 
extreme temperatures and require emergency attention. While 
Federal officials often respond to these medical emergencies, 
local EMS providers would also be called upon to assist.
    Along the northern border, in addition to coordinating with 
local and State authorities, the first responders must also 
coordinate with Federal and Canadian officials to leverage 
resources and avoid unnecessary duplication of effort and 
comply with international treaties.
    In port or seaside communities, first responders must 
prepare for and respond to threats against our Nation's ports 
and maritime trade. In these communities, first responders must 
work with port officials, shipping industry and others to 
ensure that they are prepared for a terrorist attack or other 
disaster incident.
    These are just a few of the additional challenges that 
first responders in border communities now face.
    Our witnesses today certainly represent both land borders 
and seaport communities and come from a variety of backgrounds. 
So I look forward to hearing your unique perspectives on the 
various challenges that you face dealing with the increased 
crime and violence along the borders and your coordination--
your ability to coordinate with Federal officials to protect 
our border communities.
    And again, Mr. Chairman, I would like to thank you for 
putting on this hearing today and thank the witnesses for your 
testimony. I look forward to receiving it.
    Yield back.
    Mr. Cuellar. Thank you. I, of course, now welcome the panel 
of witnesses. Let me go ahead and start with Mr. Larsen, if you 
want to go ahead and introduce your witness.

  STATEMENT OF HON. RICK LARSEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Larsen. Thank you, Mr. Chairman. And I appreciate the 
chairman's and the ranking member's willingness to allow me to 
sit in and introduce Sheriff Bill Elfo.
    After I do the introduction, I will be headed upstairs to a 
meeting until about 2:30. I would like to have an opportunity 
to come back down and continue participating in the committee.
    Sheriff Elfo, Bill Elfo, has served as sheriff of Whatcom 
County in Washington State in my district since January of 
2003. Sheriff Elfo previously served for over 6 years as the 
Director of Public Safety for the border community of Blaine, 
Washington. He has continuously served in law enforcement, for 
over 33 years as a former prosecutor, and has also served as an 
adjunct professor of criminal justice at several colleges and 
universities. He holds a B.S. and M.S. in criminal justice, as 
well as a Juris Doctorate. So, you know, he is clearly far 
smarter than I am.
    I think right now Sheriff Elfo is the current President of 
the Washington State Sheriffs Association. He is a former 
President of the Whatcom County Police Chiefs Association, a 
member of the International Sheriffs Association, the 
International Association of the Chiefs of Police, as well as a 
variety of other organizations; and has served as Chair for the 
Washington State Attorney General's Criminal Law and Sentencing 
Committee of the Methamphetamine Task Force.
    So the point I want to make is, he is extremely involved in 
not just his job as a sheriff, but in all aspects of law 
enforcement and the kind of coordination that we need to have 
at our northern border, where you have not just a county 
sheriff, but local police forces, you have Federal folks on our 
side of the border, as well as everyone's equivalent on the 
Canadian side of the border. So he can speak very well to the 
challenges that we face at the northern border.
    So, Mr. Chairman, I want to thank you for being willing to 
allow Sheriff Elfo to come and talk about the unique challenges 
that we have at the northern border, to be part of this 
conversation as we move forward, especially for us as we move 
forward to the 2010 Olympics in Vancouver, British Columbia, a 
mere 30 to 40 miles across our border. But as we know, the 
security shield for the Vancouver Olympics is not going to stop 
at the border; it will continue down Washington State. So 
coordination and communication is that much more important as 
we move forward through the next 2 years.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you again for being with us.
    Our other first witness, who we will get started with, is 
Ms. Leesa Berens Morrison who is the Director of the Arizona 
Department of Homeland Security. She is the first female 
director for the department and was appointed in December of 
2006. She previously served as the Director of the State 
Department of Liquor Licenses and Control for 3 years and led 
the Arizona Fraudulent Identification Task Force for Governor 
Napolitano. And again we want to thank you for being here.
    Our second witness is Luis Sosa, Chief of the Fire 
Department located in my own hometown of Laredo. He has served 
as chief for the last 6 years and has been with the fire 
department since 1976. Again, Chief, thank you for being here 
with us.
    You met Mr. Bill Elfo. And, again, it is a pleasure having 
you here, sir.
    Our fourth witness is Mr. Mike Kessler, who has served as 
the Commander of the Colville Confederated Tribes Police 
Department. Mr. Kessler is responsible for overseeing the 
tribal patrol officers and general operations of the entire 
2,276 square mile Colville Indian Reservation in north central 
Washington State. Thank you for being here with us.
    Our fifth witness is Mr. Christopher Lombard, who leads the 
communications and special operations efforts within the 
Seattle, Washington, Fire Department. His current 
responsibilities include the coordination and management and 
maintenance of communications equipment, policies for special 
operations teams, including Urban Search and Rescue and the 
Metropolitan Medical response system.
    Mr. Cuellar. And again, we want to welcome all of y'all. 
Thank you for being here with us.
    Without objection, the witnesses' full statements will be 
inserted into the record. And I will ask each witness to 
summarize his or her statements for 5 minutes, beginning with 
Director Morrison.

 STATEMENT OF LEESA MORRISON, DIRECTOR, ARIZONA DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Morrison. Thank you. Good afternoon, Chairman Cuellar, 
Ranking Member Dent and committee members--Mr. Larsen. My name 
is Leesa Berens Morrison and I serve as the Homeland Security 
Director for the State of Arizona and as cochair of the 
National Governors Association's Committee on Border Security. 
Thank you for having me here to testify today.
    I commend the committee for seeking solutions to the 
challenges that our border-based first responders face. I would 
also like to commend Chairman Cuellar for calling for the 
creation of a border liaison at the Federal Department of 
Homeland Security.
    As I begin, I would be remiss if I did not point out 
something that is very obvious. Arizona's southern border is 
not just my State's border. It is the Nation's border to 
another country and, in many ways, to the outside world.
    The first responders of the border are men and women who 
work every day to try to keep our citizens safe. They 
understand that the new reality of a September 11 world means 
that a broken border represents no less than a national 
security crisis, and every day they operate with just that 
sense of urgency. I believe our policymakers at the State and 
Federal levels owe them the same sense of urgency.
    I would like to discuss just two challenges this afternoon, 
faced by first responders in border communities. The first is a 
porous international border. The second is the absence of a 
nationwide interoperable emergency communications system.
    Because of our broken border, first responders working in 
the region are in a constant state of emergency response, 
making it even more challenging to operate when communications 
among first responders is hindered. As a State that experiences 
the majority of the Nation's illegal border crossings, Arizona 
offers a real-world perspective on the implications that an 
unsecured border has on emergency response. Every day we 
address the repercussions of an open border, including border 
violence, criminal activity, incarcerations, investigations and 
autopsies, all of which place an undue and unsustainable 
staffing and funding strain on our first responders.
    While we wait for Federal action to secure the border and 
alleviate these challenges, Arizona has taken temporary 
measures to address this dire security gap. Governor Napolitano 
released State emergency funds to pay for additional local law 
enforcement patrols. We have applied State resources for 
antigang squads and a fraudulent ID task force. We have 
expanded the work of our fusion center, the Arizona 
Counterterrorism Information Center, which now encompasses 
members from local border counties.
    However, it would be shortsighted to focus too much on 
these measures, because they divert our first responders from 
the regular duties within their communities. The real solution 
to border crisis can only be found at the Federal level.
    The second significant challenge facing first responders 
along the border is a lack of a comprehensive, coordinated 
system of interoperable communications. In Arizona, we don't 
have to theorize about what our communication needs would be in 
an emergency situation. Our first responders on the border 
operate under these conditions every day.
    With no comprehensive long-term Federal solution to the 
communications vacuum in sight, States have applied Band-Aid 
solutions that will work during emergency response. In Arizona, 
we have spent our precious homeland security funding to develop 
patching technologies, upgrade radio towers and purchase mobile 
communication vans. But I reiterate, these temporary measures 
are no substitute for comprehensive action at the Federal 
level.
    We need a long-term solution to the ongoing problem and 
Federal dollars to implement the solution. The solution must 
involve permanently installed infrastructure for real-time, on-
demand interoperability supported by 700 and/or 800 MHz trunks 
and P25 compliant radios.
    Arizona also encourages any Federal effort to provide 
States with a distinct and separate funding stream for 
interoperability funding efforts, such as the Department of 
Commerce's Interoperability Grant Program. And since we know 
that emergencies do not stop at international borders, I ask 
that Congress take into consideration the additional need for 
cross-border communications. We need to be able to communicate 
with our neighbors to the south in the case of an emergency.
    In summary, we will do all that we can do in Arizona to 
address all of these challenges, but resources are scarce and 
stretched way, way too thin. I would ask that Congress continue 
to give attention to the unique challenges that border first 
responders face every day, and apply funding and Federal 
solutions to these challenges for the sake of homeland security 
and the safety of our citizens.
    I appreciate your time and your consideration, and I am 
glad to answer any questions.
    Mr. Cuellar. OK. Well, thank you for your testimony.
    [The statement of Ms. Morrison follows:]

              Prepared Statement of Leesa Berens Morrison

    Chairman Cuellar, Ranking Member Dent and Committee Members.
    My name is Leesa Berens Morrison and I serve as Homeland Security 
Director for the State of Arizona and chair of the National Governors 
Association's Border Security Committee, part of NGA's Governor's 
Homeland Security Advisory Committee. Thank you for the opportunity to 
testify before you today.
    I commend you for calling this hearing on such an important and 
timely subject, and for working to seek solutions to the challenges 
faced by border-based first responders. I also would like to commend 
Chairman Cuellar on calling for the creation of a Border Liaison at the 
U.S. Department of Homeland Security to improve relationships and 
communications on both sides of our border, as well as a comprehensive 
study to determine the infrastructure, staffing and resources needed at 
our borders. I applaud your commitment to improving border security, 
and the Committee as a whole for taking the time to convene today.
    As I begin my testimony, I would be remiss if I did not point out 
something that, although obvious, is important to keep in mind. 
Arizona's southern border is not just my state's border. It is our 
nation's border to another country and, in many ways, to the outside 
world. In our post-September 11 world, that means a broken and 
malfunctioning border represents no less than a national security 
crisis in the United States. The first responders at the border are men 
and women who work every day to try to keep our citizens safe and 
secure. They understand this reality and operate with that sense of 
urgency. I believe our policy-makers at the state level and federal 
level owe them the same sense of focus and urgency.
    I would like to focus my remarks on two of the most troublesome 
challenges faced by first responders in border communities. The first 
is the porous, unsecured international border. As the state that 
experiences the majority of the nation's illegal border crossings, 
Arizona offers real-world perspective on the implications that an 
unsecured border has on emergency response. The second challenge is a 
nation that lacks a comprehensive, interoperable emergency 
communications system, the absence of which makes it both dangerous and 
difficult for first responders to protect and save lives. In Arizona we 
do not have to theorize about what our communications needs would be in 
an emergency situation--our first responders on the border operate 
under these conditions every day.

The Challenges of a Porous Border
    More than a million illegal crossers have been apprehended along 
the 377-mile Arizona-Mexico border over the last two years. The 
repercussions of so much illegal cross-border traffic include increased 
border violence, criminal activity, incarcerations, investigations and 
autopsies, all of which place an undue and unsustainable staffing and 
funding burden on the first responders who work in this region. Through 
no choice of our own, Arizona's first responders have also become, in 
many ways, de-facto Border Patrol agents and immigration police. This 
places an enormous strain on our first responders, not to mention the 
overall security of our state.
    As you consider the unique burdens on first responders in border 
states, it is also critical to keep in mind that our southern border 
is, for vast stretches, comprised of the desert. In many ways, the 
crises our border-based first responders handle on a daily basis are 
the result of the harsh environment in which they work. Firstly, 
Arizona emergency responders along the border must be specially-trained 
to work and function safely in very remote areas with extreme heat and 
weather conditions, much like the special training provided to the 
National Guard who reported to the southern border as part of Operation 
Jumpstart. This alone represents a unique cost for first responders 
that states like ours must bear.
    But the much greater burden is that many of the emergencies we 
respond to every day are immigration-related crises caused by the 
extreme conditions in the desert. Each year first responders find 
hundreds of bodies in the Arizonan desert. These were people attempting 
to cross into the United States, but who succumbed to heat, dehydration 
and other common problems associated with the conditions of our region. 
In addition to being a tragic loss of life, each one of these deaths 
also presents great cost of money and manpower to the State of Arizona 
and to the Native American nations along the border. Recovery, 
investigations, autopsies and burial costs all must be borne by our law 
enforcement agencies and first responders.
    For every one of the deaths that occur during attempted border 
crossings, our first responders handle many more rescue operations. 
Putting aside the problems with our broken border and outdated 
immigration laws, first responders have an obligation to save lives, 
and along the border they meet that obligation many times every day.
    These life-saving emergency responses along our border every year 
takes not only an economic toll on our border communities but it is 
also an enormous drain on the emergency response system we have put in 
place to deal with natural disasters and homeland security crises.
    However, sitting by idly awaiting federal action to address the 
cause of these strains--the open border--is not an option. To help fill 
this dire security gap in our state, Arizona has:
        <bullet> Dissuaded illegal crossers through increased local law 
        enforcement patrols along the border, paid for with state 
        funding that was freed up when Governor Napolitano declared a 
        state of emergency in Arizona's border counties;
        <bullet> Decreased border-related crime through Arizona anti-
        gang squads--Gang Intelligence and Immigration Team Enforcement 
        Missions (GIITEMs)--which include local law enforcement from 
        border communities;
        <bullet> Dismantled manufacturers and vendors of the fake IDs 
        that are used to facilitate violent human trafficking and other 
        crimes associated with illegal immigration, through the 
        Governor's Fraudulent ID Task Force, comprised of local and 
        state law enforcement;
        <bullet> Cracked down on border region auto theft through 
        Arizona's Stolen Vehicle Border Enforcement Strategy, through 
        which local and state law enforcement use high-tech cameras to 
        identify stolen vehicles as they travel southbound to the 
        Mexico border;
        <bullet> Formed intelligence-sharing partnerships with our 
        neighboring border states of California, New Mexico and Texas 
        and expanded the work of the Arizona Counter Terrorism 
        Information Center to encompass local law enforcement officers 
        from the border counties.
    I am proud of the successes our border first responders, primarily 
law enforcement, have had in addressing these additional challenges. 
However, it would be shortsighted to focus too much on these temporary 
measures because these efforts divert first responders from their 
regular duties within their communities. The real solution to the 
border crisis can only be found at the federal level. I am here today 
to ask for your assistance so that our first responders can focus their 
efforts on their primary duties in their local communities instead of 
fulfilling, what we believe to be, a federal responsibility at our 
borders.

Interoperability Challenges
    A second significant challenge facing first responders along the 
border is a lack of a comprehensive, coordinated system of 
interoperable communications. Because of our broken border, first 
responders working in the region are in a constant state of emergency 
response, making it even more challenging to operate when 
communications among first responders is hindered. And after our many 
months and years in this situation, it is clear that the 
interoperability of our emergency communications systems is still 
inadequate.
    With no comprehensive long-term federal solution to the 
communications vacuum in sight, states have applied a ``band-aid'' 
approach that works only during emergency response. In Arizona, we have 
spent precious homeland security funding to provide for 
interoperability along the border and throughout the state on a short 
term basis, including:
        <bullet> Building patching technologies, upgrading radio towers 
        and purchasing Mobile Communications Vans that allow Arizona 
        first responders to communicate with one another during 
        emergency response efforts. Just last year Arizona opened an 
        additional two regional communications hubs in Santa Cruz 
        County to further enhance border interoperability during 
        emergencies;
        <bullet> Developing a mutual aid agreement with Sonora to share 
        response equipment that provide secure radio communications 
        among law enforcement and response agencies working along the 
        border;
        <bullet> Creating a Collaborative Border Regional Alliance to 
        develop cooperative relationships among the disparate 
        communications service providers supporting the Arizona/Sonora 
        region;
        <bullet> Holding bi-national exercises involving hundreds of 
        Arizona and Mexican firefighters, medical responders and law 
        enforcement officers who work along the border to test cross-
        border interoperability.
    I can give you hundreds of examples of how these interim measures 
have assisted our first responders' communications capabilities during 
emergency responses along our border. But, I reiterate that these 
temporary measures are no substitute for comprehensive action at the 
federal level to upgrade our nation's public safety communications 
systems and achieve fixed, permanently-installed infrastructure for 
real-time, on-demand interoperability, supported by 700/800 MHz, 
trunked and P25 compliant radios. We need a long-term solution to this 
ongoing problem, and federal dollars to implement the solution. For all 
of our safety, we owe our first responders the ability to communicate 
with one another during all emergency response efforts, not just large-
scale events. And since emergencies do not stop at international 
borders, I ask that Congress take into consideration the additional 
need for cross-border communications.
    Arizona also encourages any federal effort to provide states with a 
distinct and separate funding stream for interoperability efforts, such 
as the Department of Commerce's interoperability grant program.

Funding Shortfalls
    The simple fact is that state and local response efforts depend to 
a large degree on federal homeland security funding, and although these 
funds have decreased over recent years the challenges to first 
responders, especially in border communities have continued to grow. 
First responders will always be the first people we turn to, whether 
it's a terrorist attack or a national disaster. We trust these 
firefighters, law enforcement officers and emergency medical personnel 
to save our lives. In return, they trust us to ensure that they have 
the resources they needs to keep us safe and our nation secure. And at 
the border our first responders need specific cross-border pandemic 
plans, unique critical infrastructure protection and bi-national 
preparedness and training systems. I believe all of this should all be 
given due consideration when federal homeland security funding 
allotments are determined. We will continue to do all we can in Arizona 
to address these challenges, but resources are scarce and stretched too 
thin.

Closing
    In closing, I ask that Congress continue to give attention to the 
unique challenges that border first responders face every day, and to 
apply the necessary funding and federal solutions to these challenges, 
for the sake of homeland security and the safety of our citizens.
    Since 9/11 first responders have been asked to do more for their 
communities than ever before. In addition to their everyday heroic 
efforts while walking beats, suppressing fires, conducting search and 
rescue and hazardous materials response and providing emergency medical 
care, first responders today are constantly on the lookout for 
terrorist activity. And first responders working in border communities 
bear the additional responsibilities that must be acknowledged and 
addressed.
    I appreciate your time and consideration, and am pleased to answer 
any questions you have at this time.

    Mr. Cuellar. At this time, we recognize Chief Sosa to 
summarize his statement for 5 minutes.

STATEMENT OF LUIS F. SOSA, JR., FIRE CHIEF, LAREDO, TEXAS; BILL 
  ELFO, SHERIFF, WHATCOM COUNTY SHERIFF'S OFFICE, WASHINGTON 
                             STATE

    Chief Sosa. Chairman Cuellar, Ranking Member Dent and 
members of the Subcommittee on Emergency Communication, 
Preparedness and Response, on the border, because we are often 
so isolated from any surrounding communities on the U.S. side, 
we understand better than most that we are on our own to 
address the threats not only to the people, property and 
economy of Laredo, but increasingly the United States.
    For instance, while my colleagues in New York City or the 
District of Columbia may rely upon union assistance, joint 
assistance programs with surrounding communities, in times of 
challenge, in Laredo our nearest support is 2 hours away, 
despite Nuevo Laredo, Mexico, a city of 600,000 population, 
just across the river. And while the Federal agents manning the 
border posts have other security responsibilities, Laredo bears 
the burden with respect to protection of life, health and 
property.
    While the chairman is well aware of Los Dos Laredos, or the 
two Laredos, and the role we play on the border, let's take a 
moment to share some insights about my community with the 
subcommittee. In outlining Laredo's role on the border, I am 
also seeking to answer the questions that many of you may have.
    Why should Federal resources be used to support services 
that are typically provided by every local government?
    Laredo is at the center of the primary trade route 
connecting Canada, the United States and Mexico. We are the 
gateway to Mexico's burgeoning industrial complex. The two 
Laredos are actually one city divided only by one river.
    Laredo became the first official port of entry on the U.S. 
and Mexico border in 1851. In fact, the United States consulate 
in Nuevo Laredo, Mexico, is America's oldest, continuously 
active diplomatic post, established in 1872. Today, the Laredo 
Customs District handles more trade than the land ports of 
Southern California, Arizona, New Mexico and West Texas 
combined.
    The city of Laredo provides a unified approach of police, 
fire and public health first responders to ensure safety, 
security and public health disease control and preparedness. We 
also provide training, planning and support for disease control 
and prevention through our public health authority.
    We support our Federal and State partners in responding to 
public health and safety hazards, challenges such as primary 
response for river rescue and recovery, as well as response to 
bomb threats at our international bridges to conduct searches 
for weapons of mass destruction.
    Despite Laredo's providing these national defense services, 
Laredo is not a direct beneficiary of any of the new DHS 
programs because Federal funding of homeland security has been 
limited to the U.S. census data.
    Funding formulas must be changed to address threat levels 
and services provided to the Nation by border communities. 
Laredo is providing the services; it is time that the Nation 
provides Laredo with a fair share of resources needed for these 
efforts.
    Federal funding for homeland security and public health 
response initiatives must compensate local communities that are 
providing protection to the Nation. The easiest way to 
accomplish this goal is to create a border category in all 
funding formulas.
    There are also specific steps that the Congress can take to 
address these challenges. The UASI should be changed to make 
proximity to the border a threat criterion, and funding should 
be available for people and equipment required to meet threats 
to the Nation's health and safety. Laredo provides more public 
health responders and public safety responders on the border 
than the Federal Government, yet it is not eligible for any 
direct funding.
    The port security initiative must be modified to include 
all major ports, not simply water ports. The city of Laredo is 
the Nation's largest inland port on the U.S.-Mexico border, and 
yet it is not eligible for port security funding. International 
bridges should be included in the protected class of 
infrastructure of national significance. Their loss would have 
a major impact to the Nation's economy.
    Creative border security initiatives, such as Laredo's 
``River Vega'' project, that enhance national security by 
clearing lines of sight and building river retaining walls with 
the result being an integrated national security project should 
be supported.
    All other DHS and Department of Justice programs which fund 
first responders, like the SAFER grant and the COPS grant, must 
be fully funded; and the role a community plays in supporting 
national security must be included in the funding criteria.
    Laredo is the only southern border city strategically 
positioned at the convergence of all land transportation 
systems. While this location results in Laredo being our 
Nation's largest inland port on the southern border, it also 
means that Laredo's public safety and health programs are 
heavily burdened with the flow of such commerce.
    Laredo is the shipping and receiving dock for the urban 
centers and seaports in your States. There are even statistics 
on the amount of cargo that flows from or returns to your 
States, like Washington, New York, Pennsylvania, the Carolinas 
and beyond.
    Laredo and other communities strive for healthy and safe 
communities. Sometimes we are asked to bear too large a burden 
in keeping our Nation healthy and safe. We look to this economy 
to assist us obtain the resources we need to help us meet that 
challenge.
    Thank you.
    Mr. Cuellar. Thank you, Chief, for your testimony.
    [The statement of Chief Sosa follows:]

                  Prepared Statement of Louis F. Sosa

INTRODUCTION
    Chairman Cuellar, Ranking Member Dent and Members of the 
Subcommittee on Emergency Communications, Preparedness, and Response--
Good morning. I am Luis F. Sosa, Jr. I have been proud to lead the 
Laredo Fire Department, a three hundred and thirty--three (333) 
uniformed personal department, since 2001. Like my father before me, my 
professional career has been as a first responder on the border, having 
joined the Department in 1976. .

LEADERSHIP OF CHAIRMAN CUELLAR
    Before I begin my formal testimony, I would like to take a moment 
on behalf of my fellow border first responders in Laredo to thank 
Chairman Cuellar and this Committee for the focus you have brought to 
the challenges we face. This past March, Chairman Cuellar sat down with 
me, Laredo Police Chief Dovalina and Laredo Health Director Dr. Hector 
Gonzales to craft a US-Mexico Border Public Safety and Public Health 
Response paper. The conclusion of that paper, a copy of which is 
attached to my testimony, is that there is a need for a Federal-Local 
partnership.

ISOLATION & COOPERATIVE EFFORTS
    On the border, because we are so often so isolated from any 
surrounding communities on the U.S. side, we understand better than 
most that we are on our own to address threats not only to the people, 
property and economy of Laredo, but increasingly to the United States. 
For instance, while my colleagues in New York City or the District of 
Columbia may rely upon joint assistance programs with surrounding 
communities in times of challenge, in Laredo, ``our nearest U.S. 
support'' is over an hour's drive away, despite Nuevo Laredo, a city of 
600,000 being just across the river. And while the Federal agents 
manning the border posts have point responsibility for security, Laredo 
bears the burden with respect to protection of life, health and 
property.

LOS DOS LAREDOS AND THE ROLE WE PLAY ON THE BORDER
    While the Chairman is well aware of ``La Dos Laredos,'' or ``The 2 
Laredos'' and the role we play on the border, let me take a moment to 
share some insights about my community with the Subcommittee. In 
outlining Laredo's role on the border, I am also seeking to answer the 
question that many of you may have--Why should federal resources be 
used to support services that are typically provided by every local 
government?

        A. Largest and Oldest Southern Inland Port
    Laredo is at the center of the primary trade route connecting 
Canada, the United States and Mexico. We are the gateway to Mexico's 
burgeoning industrial complex. The two Laredos are actually one city, 
divided only by a river. Laredo became the first ``official'' Port of 
Entry on the U.S./Mexico border in 1851. (In fact, the United States 
Consulate in Nuevo Laredo, Mexico is America's oldest continuously 
active diplomatic post, established in 1872.) Today, the Laredo Customs 
District handles more trade than the land ports of Southern California, 
Arizona, New Mexico and West Texas combined.

        B. Services We Provide Laredo and Nation
    The City of Laredo provides its local citizens and the nation a 
comprehensive public safety and public health response to threats at 
the border. Laredo provides:
        <bullet> A unified approach of police, fire and public health 
        first responders to ensure safety, security and public health 
        disease control and preparedness.
        <bullet> Training, planning and support for disease control and 
        prevention through its public health authority.
        <bullet> Support for our federal and state partners in 
        responding public health and safety hazards challenges such as 
        primary response for river rescue and recovery as well as 
        response to bomb threats at our international bridges to 
        conduct searches for weapons of mass destruction.

CHALLENGE
    Despite Laredo providing these national defense services, Laredo is 
not a direct beneficiary of any of the new DHS programs because federal 
funding for homeland security has been limited to US census data. 
Funding formulas must be changed to address threat levels and services 
provided to the nation by border communities. Laredo is providing the 
services. It is time that the nation provides Laredo with a fair share 
of the resources needed for these efforts.

SOLUTIONS
    Federal funding for homeland security and public health response 
initiatives must compensate local communities that are providing 
protection to the nation. The easiest way to accomplish this goal is to 
create a border category in all funding formulas.

There are also specific steps that the Congress can take to address 
these challenges:
        <bullet> UASI should be changed to make proximity to the border 
        a threat criterion and funding should be available for people 
        and equipment required to meet threats to the nation's health 
        and safety. Laredo provides more public health responders and 
        public safety responders on the border than the federal 
        government, yet it is not eligible for direct funding.
        <bullet> The Port Security initiative must be modified to 
        include all major ports, not simply water ports. The City of 
        Laredo is the nation's largest inland port on the U.S. Mexico 
        border, yet it is not eligible for port security funding.
        <bullet> International Bridges should be included in the 
        protected class of infrastructure of national significance. 
        Their losses would have a major impact on the nation's economy.
        <bullet> Creative border security initiatives such as Laredo's 
        ``River Vega'' project that enhance national security by 
        clearing lines of sight and building river retaining walls with 
        the result being an integrated national security project should 
        be supported.
        <bullet> All other DHS and Department of Justice programs which 
        fund first responders (i.e. SAFER, COPS) must be fully funded 
        and the role a community plays in supporting national security 
        must be included in the funding criteria.

CONCLUSION
    Laredo is the only southern border city strategically positioned at 
the convergence of all land transportation systems. While this location 
results in Laredo being our nation's largest inland port on the 
southern border, it also means that Laredo's public safety and health 
programs are heavily burdened with the flow of such commerce. Laredo is 
the shipping and receiving dock for the urban centers and seaports in 
your states. There are statistics of the amount of cargo that flows 
from, or returns to, your states of Mississippi, Washington, New York, 
Pennsylvania, Indiana, the Carolinas, Alabama and beyond. Laredo and 
other border communities strive for healthy and safe communities. 
Sometimes we are asked to bear too large a burden in keeping our nation 
healthy and safe. We look to this committee assist us obtain the 
resources we need to meet that challenge.
    Thank you and I look forward to your questions.

    Mr. Cuellar. At this time I now recognize Sheriff Bill Elfo 
to summarize his statement for 5 minutes.

   STATEMENT OF BILL ELFO, SHERIFF, WHATCOM COUNTY SHERIFF'S 
                    OFFICE, WASHINGTON STATE

    Mr. Elfo. Mr. Chairman and members of the committee, thank 
you for the invitation and opportunity to be here today to 
discuss some of the unique challenges and successes of first 
responders in northern border communities.
    Whatcom County is located in the extreme northwest corner 
of the United States, or the continental United States. It 
encompasses 2,150 square miles and has a population of over 
186,000. We share a 90-mile land border with Canada and 30 
miles of Puget Sound coastline. We have 10,000-foot-high 
mountains and a remote terrain that is often difficult to 
access.
    We are 30 miles south of Vancouver, British Columbia, site 
of the 2010 Olympics. We include Point Roberts, which is unique 
and presents special law enforcement and homeland security 
challenges; not physically connected to the U.S. mainland, it 
is surrounded on three sides by water and is accessible by land 
only by driving 26 miles of busy Canadian highways and 
processing through two Customs checkpoints in two countries.
    Local responders are challenged to provide protection and 
emergency response to key critical infrastructure related to 
the border and commerce that includes refineries and butane and 
propane storage facilities. Not only are these facilities 
vulnerable to attacks that are capable of producing major local 
devastation, but their destruction would cause international 
consequences.
    The northern border experiences serious problems with 
narcotics, human and weapons smuggling; and it has been the 
route for terrorists on two occasions to enter the United 
States. Fortunately, good cooperation between homeland security 
and local law enforcement exists, and we work together to 
detect and capture hundreds of wanted criminals each year. 
Border bounce-backs involve over 600 persons per month from 
around the country, seeking admission to Canada, who are denied 
entry because of criminal records, mental illness or indigency. 
Many remain in our community and cause problems including 
brutal murders.
    It is essential that local State and Federal law 
enforcement and other first responders continue to work 
together to mitigate these unique challenges and protect our 
community and Nation.
    Local and State responders in Whatcom County include the 
Whatcom County Sheriff's Office, which has county-wide 
responsibilities plus 10 city, State and tribal first responder 
agencies. All major components of the Department of Homeland 
Security are present, as is the FBI, the DEA, the National 
Parks Service and the U.S. border services which conduct 
operations in Whatcom County. Fire protection and emergency 
medical services are provided through 19 independent fire 
agencies.
    Since the 9/11 attacks, there has been a large infusion of 
DHS agents into our community. Staffing assets at the Border 
Patrol, Coast Guard, ICE and CBP have increased dramatically. 
Particularly notable was the establishment of the CBP Air and 
Marine unit at Bellingham Airport.
    Cooperation and resource-sharing between local and Federal 
law enforcement officials have been outstanding. The county has 
been a good partner to Federal law enforcement as well.
    In our local system, we prosecute and process over 80 
percent of the cases that are initiated by Federal law 
enforcement agencies. The county recently launched a data-
sharing project that allows local, State and Federal law 
enforcement to share criminal data; and we have established a 
highly skilled and equipped Sheriff's Special Response Team to 
respond to situations requiring special weapons tactics and 
equipment.
    The Sheriff's Office has worked with DHS and others to 
develop major functional exercises that will test interagency 
response, communications and coordination. However, despite 
these successes, many gaps and vulnerabilities continue to 
exist. Much more needs to be done to improve response 
capabilities, communications and information-sharing.
    To meet these challenges, it is absolutely essential that 
first responders are able to fully cooperate and communicate 
with each other. At present, none of the agencies have 
dependable communication systems that cover their entire area 
of operations. Not all agencies can operate in a secure mode, 
and there is really no common frequency to bring all agencies 
together for true interoperability.
    Terrain challenges and a lack of funding have precluded the 
achievement of a workable countywide system. Treaties granting 
Industry Canada approval of border area frequency licenses 
further limit options.
    It is essential that border area first responders at all 
levels develop capabilities, including a joint operation center 
large enough to accommodate everyone to work together in times 
of need under protocols established by the National Incident 
Management System. DHS is reviewing EOC capabilities in 
connection with the 2010 Olympics, and this may provide an 
opportunity to resolve that situation.
    Federal assistance is needed to reach agreements with the 
Canadian Government and eliminate bureaucratic and systematic 
impediments that delay critical emergency responses to parts of 
our county, particularly Point Roberts, and facilitate the 
timely response of law enforcement.
    We are also burdened with some new regulations; regulations 
requiring passports to re-enter the United States at Point 
Roberts have been an impediment. We have asked for the State 
Department's help and it has not been forthcoming. We are now 
engaged in the time-consuming, expensive process of acquiring 
passports for our law enforcement personnel. We also need to 
work toward better relations with Customs Canada on capturing 
wanted criminals who try to enter Canada to flee American 
justice.
    The sheriffs of the State and other law enforcement 
officials are concerned about the timeliness and adequacy of 
information provided by Federal officials regarding threats in 
our local communities. Improvements have been made, including 
enhanced intelligence fusion centers, but much more needs to be 
done. Problems encountered at the local county level can be 
dealt with by local law enforcement agencies and other first 
responders if adequate resources are provided for staffing, 
training, equipment, interoperable communications and 
exercises.
    Leaders in local first response agencies are in the best 
position to assess local needs and mount responses. No State or 
Federal agency is as familiar with these issues as sheriffs and 
other local emergency response officials. Consequently, they 
are in the best position to prevent, respond and mitigate the 
effects of border crime and threats.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you again for your testimony.
    [The statement of Mr. Elfo follows:]

                    Prepared Statement of Bill Elfo

    Bill Elfo has served as Sheriff of Whatcom County, Washington since 
January of 2003. Sheriff Elfo previously served for over six years as 
Director of Public Safety for the border community of Blaine, 
Washington. Sheriff Elfo has continuously served in law enforcement for 
over 33 years and is a former prosecutor, has served an adjunct 
professor of criminal justice at several colleges and universities and 
currently serves on the criminal justice advisory board for two 
colleges.
    Sheriff Elfo holds a BS and MS in Criminal Justice as well as a 
Juris Doctorate. He is a graduate of the FBI Command College, the FBI 
National Law Institute, the Southern Police Institute and many other 
professional training programs. He holds Executive Level Certification 
from the Washington State Criminal Justice Training Commission. Sheriff 
Elfo is a member of the Washington State Bar, the Bar of the United 
States District Court of the Western District of Washington and the 
bars of several other state and federal courts.
    Sheriff Elfo is the current president of the Washington State 
Sheriff's Association and a former president of the Whatcom County 
Police Chiefs Association. He is a member of the National Sheriff's 
Association, the International Association of Chiefs of Police, the 
Washington Association of Sheriffs and Police Chiefs and the Whatcom 
County Police Chiefs Association.
    He served as Chair of the Washington State Attorney General's 
Criminal Law and Sentencing Committee of the Methamphetamine Task 
Force. He has been invited to serve on the National Sheriffs' 
Association, Sheriff's Mutual Aid Response Committee.
    Mr. Chairman and Members of the Homeland Security Committee:
    Thank you for the opportunity to testify before you and discuss 
some of the unique challenges confronting first-responders in border 
communities and to present some of the successes we have experienced in 
dealing with them.
    Whatcom County is located in the extreme northwest corner of 
Washington State. It is over 2150 square miles in size and shares an 
approximate 90-mile land border with Canada and has 35 miles of Puget 
Sound coastline. Geographically diverse, the County includes 10,000 
foot high mountains and remote terrain that are very difficult to 
access. Whatcom County is located just 30 miles south of Vancouver, 
British Columbia the site of the 2010 Winter Olympics. With over 
186,000 residents it is home to Western Washington University, Whatcom 
Community College and Bellingham Technical College.
    Unique law enforcement and homeland security challenges are 
presented by the 1500 resident County community of Point Roberts. Point 
Roberts is not physically connected to the rest of the County or the 
United States by land and is surrounded on three sides by water. By 
land, it is only reachable by driving through 26 miles of busy Canadian 
highways and processing through two Customs checkpoints.
    Local responders are challenged to provide protection and emergency 
responses to key critical infrastructure within the County. Not only is 
this infrastructure vulnerable to attacks that can result in local 
devastation, but if disrupted, could lead to major regional, national 
and international consequences.
    Two major oil refineries, a large aluminum smelter, two major dams 
providing hydro-electricity, and propane/butane production and storage 
facilities all are located within the County. Marine ports of entry, 
petroleum pipelines, railways and an interstate highway facilitate 
international commerce. Pipelines provide fuel to Sea-Tac airport south 
of Seattle and to McChord Air Force Base.
    The northern border has experienced serious problems with 
narcotics, human and weapons smuggling. Terrorists have traversed it to 
enter our Country. Abu Mezer, who planned the bombing of the New York 
City subway system, entered the United States at the Blaine Washington 
port of entry. Ahmed Ressam entered the country through Port Angeles, 
Washington with explosives and a plan to attack Los Angeles 
International Airport.
    Fortunately, Customs and Border Protection officers and local law 
enforcement work together to detect hundreds of wanted criminals 
seeking to cross the international border. In additions to detecting 
hundreds of cases involving weapons, drugs, kidnapping and stolen 
property, Whatcom County processes on average, 150 wanted fugitives 
from across the country every year. The cities of Blaine (population 
4000) and Sumas (population 700) straddle the border and their police 
departments are also involved in these efforts.
    On average, over 600 persons a month seeking admission to Canada or 
seeking entry to Canada to reach Alaska, are denied entry because of 
criminal records, mental illness or indigency. Some remain in our 
community and cause problems. A Colorado sex offender was denied entry 
to Canada and returned to Bellingham where he brutally murdered a woman 
in a city park. A criminal alien who had recently been denied entry to 
Canada stabbed a young worker to death in a Bellingham shopping center.
    It is essential that local, state and federal law enforcement and 
other first responder agencies work together to mitigate these unique 
challenges and protect our community and nation.
    The municipalities of Blaine, Sumas, Lynden, Everson-Nooksack, 
Ferndale and Bellingham operate their own police departments and the 
Whatcom County Sheriff's Office has jurisdiction throughout the County. 
Other local and state law enforcement agencies operating within the 
County include the Washington State Patrol, the Western Washington 
University Police Department, Lummi Nation Law and Order and the 
Nooksack Tribal Police Department. Major components of the Department 
of Homeland Security present in Whatcom County include Customs and 
Border Protection, Immigration and Customs Enforcement, the Coast Guard 
and the Border Patrol. The FBI, DEA, National Park Service and the U.S. 
Forest Service law enforcement components also maintain operations and 
offices within the County.
    Fire protection and emergency medical services are provided through 
sixteen independent fire districts, the City of Bellingham and Lynden 
Fire Departments, the Department of Natural Resources and a volunteer 
fire agency operated by Seattle City Light at the Skagit River Project. 
The Sheriff's Office Division of Emergency Management provides overall 
emergency coordination and operates an emergency operations center.
    Since the attacks of 9-11, there has been a large infusion of 
agents of the Department of Homeland Security into our community. 
Staffing and assets at the Border Patrol, Coast Guard, Immigration and 
Customs Enforcement and Customs and Border Protection have increased 
dramatically.
    Particularly notable was the establishment of the Customs and 
Border Protection Air and Marine Unit at the Bellingham International 
Airport. Cooperation and resource sharing between local and federal law 
enforcement officials have been outstanding. Air resources provided in 
times of emergency have proven invaluable. The Border Patrol has agreed 
to assign an agent to the regional drug task force and the Coast Guard 
makes its vessels and crews available to assist on a variety of 
missions.
    The County continues to be a good partner and processes over 80% of 
the criminal cases initiated by federal officers in our local criminal 
justice system. The County recently launched a data-sharing project 
that will allow all local, state, and federal participating agencies to 
share data. A highly skilled and equipped Sheriff's Special Response 
Team is able to provide special weapons and tactics when necessary.
    The Sheriff's Office is also working closely with the Department of 
Homeland Security, the State Military Department and other emergency 
response agencies and has developed functional exercises designed to 
test interagency response, communications and coordination.
    Despite these successes, many gaps and vulnerabilities continue to 
exist. Much more needs to be done to improve communications, 
information sharing, response capabilities and relationships.
    To meet these challenges, it is absolutely essential that local, 
state and federal first-responders are able to fully cooperate and 
communicate with each other. None of these agencies have a dependable 
communications system that covers their entire area of operations. 
Interoperability is a wish that is yet to be fulfilled.
    Most federal agencies operate on VHF band. State and locals operate 
on the VHF and UHF bands. There is no common frequency that brings all 
the agencies together for true interoperability and the closest thing 
we have is the Law Enforcement Radio Network (LERN) frequency. This 
frequency is not on repeater channels and communications are generally 
limited to line of sight. Some of the agencies have the ability to 
operate in the secure mode, but not all. When rapid communications are 
needed, they are not forthcoming.
    Terrain challenges and a lack of funding have precluded the 
achievement of a workable countywide system. In some areas, 
communication capabilities are nonexistent. Treaties that grant 
Industry Canada a review of border area frequency assignments and 
licensing further limit options. The Sheriff's Office is currently 
studying the feasibility of improving communications through satellite 
and Internet technologies.
    It is essential that border area first responders at all levels of 
government develop capabilities to coordinate responses and resources 
at major events influenced or affected by the international border. A 
joint emergency operations center large enough to accommodate border 
related activities should be constructed and maintained within our 
border county to integrate activities in times of emergency under 
protocols established by the National Incident Management System 
(NIMS). Current facilities are undersized and under-equipped to meet 
the challenges of large-scale events. The State emergency operations 
center is located over 140 miles from the border and in the event of a 
large-scale emergency requiring multiple agency coordination and a 
unified command structure, it is unlikely that local personnel who are 
critical to the success of the mission will be able to leave their 
communities to reach a distant operations center. The Department of 
Homeland Security is currently reviewing emergency operations needs in 
advance of the 2010 Olympics. This should be viewed as an opportunity 
to develop a joint emergency operations center.
    Federal assistance is also needed to reach agreements with the 
Canadian government and eliminate bureaucratic and systematic 
impediments that delay critical emergency responses to parts of our 
County and facilitate improved communications and information sharing.
    As previously described, Point Roberts is not connected to the rest 
of the United States by land. Nonetheless, the Whatcom County Sheriff's 
Office is responsible for protecting and providing emergency services. 
Prior agreements with the Province of British Columbia permitted the 
Sheriff's Office to obtain provincial firearm permits for the limited 
purpose of traveling to Point Roberts. A few years ago our federal 
government negotiated a national policy replaced the workable local 
policy.
    Registered law enforcement officers can enter Canada to travel to 
Point Roberts. However, the process now involves reporting to Customs 
Canada, waiting for the deputy's name to be checked against a registry, 
unloading all firearms, securing the firearm in a locked container in 
the trunk of the police vehicle, driving through Canada, reporting to 
the U.S. Port of Entry, removing the weapon from the container in the 
trunk, reloading it and proceeding to the emergency. As you can 
imagine, this system is unworkable and wastes valuable minutes when 
they are most needed. Furthermore, there are no provisions that allow 
our Special Response Team to respond to the Point with needed special 
weapons and equipment.
    As I was preparing this testimony, the Sheriff's Office was 
confronted with an explosive device that had been shipped to a business 
at Point Roberts through the mail. Emergency responders were delayed in 
their response because of these policies. Eventually, a Coast Guard 
vessel was secured to transport them on a boat.
    The Sheriff's Office asked for the assistance of the State 
Department in expediting and waiving fees for newly required passports 
for trips to Point Roberts. Many of these trips are needed to support 
our federal partners at the Ports of Entry. No assistance was 
forthcoming and we are now engaged in the expensive and time-consuming 
process of acquiring passports for our personnel.
    It is not uncommon for wanted criminals to try and make their way 
to Canada. In January 2006 two individuals who committed a brutal 
murder in California were located during a joint Sheriff's Office--
Homeland Security Operation that resulted in a high-speed pursuit and 
gunfire. After assaulting federal agents, the fugitives' vehicle was 
stopped literally inches from the border. When information regarding 
the pursuit was relayed to Customs Canada, their unarmed Customs 
officers abandoned their posts and their union issued a press release 
about unsafe working conditions.
    A short time later, another fugitive wanted for murder was 
suspected of being headed for the Whatcom County area. U.S. Marshals 
notified Customs Canada. Canadian Customs officers promptly walked off 
the job and issued a press release about the fugitive and unsafe 
working conditions. These actions not only jeopardized operations 
designed to apprehend the suspect, but endangered the lives of all law 
enforcement officers who may have confronted them. Until issues such as 
these can be resolved, local law enforcement is reluctant to share 
criminal intelligence information with Customs Canada.
    The Sheriffs of the State and other law enforcement officials are 
concerned about the timeliness and adequacy of information provided by 
federal officials about threats in their local communities. 
Improvements have been implemented over the past year including an 
enhanced intelligence fusion center. However, more needs to be done to 
ensure that notifications to local law enforcement are timely and 
relevant.
    The problems encountered at the local county level can be dealt 
with by local law enforcement agencies and other first responders if 
adequate resources are provide for staffing, training, equipment 
acquisition, interoperable communications, and exercises. Leaders in 
local first-response agencies are in the best position to assess local 
needs and mount responses. No state, regional or federal agency is as 
familiar with these issues as sheriffs and local law enforcement 
leaders. Consequently, they are in the best position to prevent, 
respond and mitigate the effects of border crime.

    Mr. Cuellar. I now recognize Commander Mike Kessler to 
summarize his statement in 5 minutes.

 STATEMENT OF MIKE KESSLER, HOMELAND SECURITY COORDINATOR, THE 
        CONFEDERATED TRIBES OF THE COLVILLE RESERVATION

    Mr. Kessler. Good afternoon, Chairman Cuellar, Ranking 
Member Dent, members of the subcommittee. My name is Mike 
Kessler and I am testifying today on behalf of the Confederated 
Tribes of Colville Reservation in my position as Commander with 
the Tribal Police Department. I am also responsible for 
homeland and border security issues.
    A little bit of background on the Colville Tribe: Although 
we are recognized as one tribe, right now there are 12 smaller 
bands that come together to form that confederation. The 
Colville Reservation encompasses approximately 2,275 square 
miles. We have about 9,300 tribal members, half of which live 
on or near the reservation.
    Our reservation also encompasses two counties and two 
homeland security regions. Due to that issue, we very rarely, 
if at any time, get homeland security funds because they are 
filtered through the State.
    Among the issues that I would like to briefly highlight are 
the recent float plane incidents that we have had on the 
Colville Indian Reservation. We continue to have drug smuggling 
come across the reservation--excuse me, come across the border. 
Those float planes land on remote waterways, remote airstrips 
within the reservation. The planes that we have contacted--we 
seized one, arrested the pilot; that plane was carrying in 
excess of 400 pounds of illegal narcotics, including marijuana 
and Ecstasy.
    For each plane that we sight or can make contact with, we 
have gotten information that there are four or five that we 
don't. These are both fixed-wing and rotor-wing type aircraft.
    The issues that face us in this instance are mainly our 
communications. The two aircraft that have been contacted--we 
contacted one, Border Patrol contacted another within about 20 
miles of the reservation borders--had radios that were able to 
monitor local police and Border Patrol frequencies. They know 
where we are at, they know what we are doing, they know when to 
land, where to land; and that is causing an issue for us.
    The other issue as far as resources is manpower. I have 18 
patrol officers to cover 2,270 square miles. That puts about 
three officers on at any given time on a 24/7 shift. With 2,275 
square miles to cover, I can't have officers anywhere close to 
one of these aircraft sightings at any given time; and they 
take advantage of that fact. Like I said, they know where we 
are at and what we are doing.
    Because of the lack of funding and the lack of our access 
to homeland security funding, our communications system is 
lacking, if you will. We have no digitally capable radios at 
this point. We can talk to our local county sheriff's 
department, but if they decide to have an emergency and go--
they are digitally capable to go to their digital channels--we 
are left out. We have no capability of doing that.
    Forest Service, Border Patrol, all of those local agencies 
again have P25-capable radios. We don't. We can't communicate 
with them.
    Among the homeland security responsibilities that the tribe 
has undertaken are the three dams we have with immediate access 
to the reservation. The reservation is surrounded on three 
sides by water, the Columbia River to the east and to the south 
and the Okanogan River to the west. On the Columbia, there are 
two dams that border the reservation. Grand Coulee Dam is on 
our southern border, Chief Joseph Dam is on our western border 
and Wells Dam is within 10 miles of the reservation.
    Grand Coulee Dam, the Lake Roosevelt Reservoir, the tribe 
is one of only two agencies in the area that have the 
capability of patrolling the waterways. The lack of funding for 
that arena has led to a lack of those patrols, and therefore, 
has reduced somewhat the protection to the dam. We are able to 
respond but our response is slowed.
    Having direct access to homeland security funding that is 
not filtered by the State and by the counties would greatly 
enhance the tribe's capability to provide protection to Grand 
Coulee Dam, the citizens of the reservation and the citizens of 
the surrounding counties.
    Thank you.
    Mr. Cuellar. Thank you again for your testimony.
    [The statement of Mr. Kessler follows:]

                   Prepared Statement of Mike Kessler

    Good afternoon Chairman Cuellar, Ranking Member Dent, and members 
of the Subcommittee. My name is Mike Kessler, and I am testifying today 
on behalf of the Confederated Tribes of the Colville Reservation 
(`Colville Tribe'' or ``Tribe''). I am the Commander of the Colville 
Tribe's Police Department and also serve as the lead coordinator for 
the Tribe's homeland and border security activities. I appreciate this 
opportunity to testify on the unique challenges the Colville Tribe 
faces as a tribal community along the northern border of the United 
States. Specifically, I would like to address the Colville Tribe's 
ongoing battle with cross-border smuggling, the resources and funding 
challenges we face, and our experience working and coordinating with 
government agencies.
    I would first like to provide a brief background on the Colville 
Tribe and its geographic location. Although now considered a single 
Indian tribe, the Confederated Tribes of the Colville Reservation is, 
as the name states, a confederation of 12 smaller aboriginal tribes and 
bands from all across eastern Washington State. The Colville 
Reservation encompasses approximately 2,275 square miles and is in 
north-central Washington State. The Colville Tribe has nearly 9,300 
enrolled members, making it one of the largest Indian tribes in the 
Pacific Northwest. About half of the Tribe's members live on or near 
the Colville Reservation.
    The northern boundary of the present-day Colville Reservation is 
approximately 70 miles long and within 30 miles of the U.S.-Canadian 
border. The former North Half of the Colville Reservation, which was 
opened to non-Indian settlement in the late 1800s, extends northward 
from the existing boundary to the Canadian border. The Colville Tribe 
and individual tribal members retain ownership of numerous tracts of 
land in the North Half, the largest of which are either contiguous to 
or within five miles of the Canadian border. The Tribe exercises law 
enforcement and regulatory jurisdiction over these lands.
    In addition to the Tribe's proximity to the Canadian border, a 
portion of the Grand Coulee Dam--the largest hydroelectric power plant 
in the United States and the third largest in the world--is on the 
Colville Reservation. Chief Joseph Dam, another dam on the Columbia 
River system, is also partially located on the Colville Reservation. 
Yet another dam, the Wells Dam, is located less than 10 miles from the 
southwestern boundary of the Colville Reservation.
    The Colville Tribe's police force consists of 18 officers, three of 
whom are on duty and respond to calls during any given eight-hour 
shift. The Tribe's Natural Resources Department is able to provide 
three additional officers to patrol the lakes and waterways of the 
Colville Reservation, which include Lake Roosevelt, the reservoir of 
the Grand Coulee Dam. These Natural Resources officers have also 
assisted and continue to assist the National Park Service and the 
Bureau of Reclamation (``BOR'') since those agencies heightened 
security of the Grand Coulee Dam in the aftermath of the September 11 
attacks. Collectively, a total of six law enforcement officers are 
responsible for policing all 2,275 square miles of the Colville 
Reservation and its accompanying lakes and waterways at any given time.

                         Cross-Border Smuggling

    One of the most pressing issues the Colville Tribe faces is cross-
border smuggling activity from Canada. During the past year, numerous 
sightings of unmarked fixed-winged aircraft have been reported on or 
near the Colville Reservation. Most significantly, in March 2006, the 
Colville Tribe's Natural Resources officers and officers of the Tribe's 
police department seized an unmarked float plane from Canada that was 
attempting to smuggle illegal drugs into the United States through the 
Colville Reservation. After being alerted to the plane, the officers 
were able to respond and disable the aircraft when it was attempting to 
take off from the Columbia River near the Grand Coulee Dam. After a 
long chase, the officers ultimately captured the pilot and handed over 
to federal law enforcement authorities an estimated $2 million in 
illegal drugs that had been deposited by the plane. The U.S. Border 
Patrol honored the tribal officers who participated in that seizure.
    In addition to that widely publicized incident, the Colville 
Tribe's law enforcement officers have apprehended or participated in 
the apprehension of several other individuals involved in cross-border 
smuggling activity. Collectively, these efforts have resulted in the 
seizure of millions of dollars in cash, marijuana, Ecstasy, cocaine, 
methamphetamines, and other illegal substances.
    The Colville Tribe continues to receive several reports each month 
of unidentified aircraft on the Colville Reservation. For example, in 
recent weeks one of the Tribe's police officers witnessed a small plane 
taking off from a makeshift airstrip in the eastern portion of the 
Colville Reservation. That plane, which had its identifying markings 
painted over, was representative of the types of aircraft from Canada 
that have been involved in smuggling activity.
    Smugglers have found the Colville Reservation an attractive 
thoroughfare for smuggling activity because of its remote location and 
because at any given time, the Colville Tribe has only six law 
enforcement officers (three police officers and three Natural Resources 
Department officers) to patrol the entire 2,275 square-mile Colville 
Reservation. The Tribe has reason to believe that smugglers exploit our 
lack of resources by monitoring our radio frequencies and coordinating 
their activities around our officers' movements.

                    Resources and Funding Challenges

    The Colville Tribe faces several significant resource and funding 
challenges in its effort to combat cross-border smuggling activity and 
provide security to the areas near the dams on or near the Colville 
Reservation. As the Subcommittee is aware, under current law, tribal 
governments must apply through their respective states or local 
governments for federal homeland security funding. In Washington State, 
federal homeland security funds are funneled through regions that 
correspond with county governments and their respective geographic 
boundaries. The Colville Reservation includes portions of both Ferry 
and Okanogan Counties. Those counties are included in different 
regions, 7 and 9, respectively. Because the Colville Tribe's 
governmental headquarters is in Region 9, however, the Tribe is allowed 
to seek funding only from that region. This funding mechanism, coupled 
with the fact that our neighboring counties are among the poorest in 
Washington State and are therefore not inclined to pass along funding 
to the Tribe, has effectively precluded the Colville Tribe from 
receiving any federal homeland security funding.
    The Tribe's funding challenges are most evident by the lack of on-
the-ground law enforcement personnel to patrol the Colville 
Reservation. For example, funding for the Tribe's Natural Resources 
Department officers--who were among the officers honored by the U.S. 
Border Patrol for capturing the float plane near the Grand Coulee Dam 
last year--has been omitted from the President's Budget Request for the 
last several years. This continued omission comes despite the fact that 
the Lake Roosevelt Management Agreement (``LRMA''), an agreement 
between the Tribe, the Secretary of the Interior, and other agencies 
within the Department of the Interior, requires the Bureau of Indian 
Affairs (``BIA'') to identify funds for these activities in its budget. 
Although the Tribe has been working with the BIA in an effort to get 
the funds restored to that agency's base budget, the omission has 
forced the Tribe to seek congressional assistance to get these funds 
(identified as ``Lake Roosevelt Management-Enforcement'' in the BIA's 
budget) restored through the appropriations process. As the 
Subcommittee is surely aware, restoring funding that was not included 
in the President's Budget Request has become an incredibly difficult 
undertaking.
    Communications is another area in which the Colville Tribe's lack 
of resources is evident. The Colville Tribe does not have a digitally 
capable radio system, and we currently own only four digitally capable 
radios. The primary radio frequency used by the Tribe's law enforcement 
personnel is shared with three other governmental agencies. This 
sharing of a single frequency by outside agencies, one of which is more 
than 150 miles from the Colville
    Reservation, often results in interference or otherwise 
unintelligible radio traffic. Although the Tribe possesses the capacity 
to establish its own frequency, we estimate that doing so would require 
an investment of approximately $2 million to cover the costs of radios, 
repeaters, antennas, and associated structures to house the equipment.
    Coordination with Governmental Agencies
    Even with its resources and funding challenges, the Colville Tribe 
has generally worked well with federal law enforcement agencies. Most 
significantly, the Tribe has a positive and cooperative relationship 
with the U.S. Border Patrol. Tribal personnel regularly attend 
intelligence meetings with Border Patrol officials, and the two 
entities share information on an ongoing basis. The Colville Tribe also 
shares intelligence and participates in ongoing operations with the 
U.S. Immigration and Customs Enforcement (``ICE'') agency to identify 
and attempt to curtail airborne smuggling activity.
    The Colville Tribe also coordinates with other federal agencies 
within the Department of the Interior. As noted above, the Tribe and 
the Secretary of the Interior are parties to the LRMA, which divides 
Lake Roosevelt--the reservoir of the Grand Coulee Dam--into zones and 
charges the various parties with responsibility to patrol a given zone. 
Other parties to the LRMA include the BIA, the National Park Service, 
the BOR, and the Spokane Tribe of Indians. The LRMA has been in effect 
since 1990, and officers from the Tribe's Natural Resources Department 
carry out the enforcement activities in the zone for which the Tribe is 
responsible.
    In addition to coordination with federal agencies, the Colville 
Tribe has also worked with other organizations on interoperability and 
border security issues. For example, the Tribe worked with the National 
Native American Law Enforcement Association and the National Congress 
of American Indians in the preparation of the Indian Country Border 
Security and Tribal Interoperability Pilot Program. That pilot program 
assessed border and homeland security preparedness for 40 Indian 
tribes, including the Colville Tribe, that are geographically located 
on or near the northern and southern borders of the United States.
    The Colville Tribe also coordinates with local Canadian 
governmental officials on border-crossing issues affecting our tribal 
members. The aboriginal territory of two of the 12 bands of the 
Colville Tribe--the Lakes and Okanogan bands, respectively--extends 
northward into what is now British Columbia. Many Colville tribal 
members who descend from those bands maintain close cultural ties north 
of the border. The Tribe maintains a dialogue with local officials of 
the Canada Border Services Agency and with entities in the Integrated 
Border Enforcement Team (``IBET'') network on these and related issues. 
Although the Colville Tribe is not formally part of the IBET network, 
the Tribe participates in IBET indirectly for law enforcement purposes 
through its relationships with the U.S. Border Patrol and ICE.
    The Colville Tribe remains very concerned about the cross-border 
smuggling activity and other vulnerabilities on the Colville 
Reservation. In response to the smuggling events that began during the 
last year, the U.S. Attorney for the Eastern District of Washington was 
quoted in a northwest newspaper as noting that, ``a person that will 
smuggle guns, drugs, meth, Ecstasy and cash will also be the kind of 
person who will smuggle a special interest alien or a terrorist.'' The 
Colville Tribe echoes this concern and stands ready to work with the 
Subcommittee to explore solutions to these and other problems affecting 
border communities.
    This concludes my statement. At this time, I would be happy to 
answer any questions the Subcommittee may have.

    Mr. Cuellar. At this time I would recognize Christopher 
Lombard to summarize his statement in 5 minutes.
    Mr. Lombard. Good afternoon, Chairman Cuellar, Ranking 
Member Dent and the other members of the committee. Thank you 
for the beautiful weather today. It is my understanding that 
yesterday was more the Seattle Day. I should have come a day 
earlier to take advantage of that.
    My name is Chris Lombard. I am with the Seattle Fire 
Department. I come before you today as one of our Nation's 
first responders. My purpose is to share with you some of the 
critical public safety issues, as my colleagues have. While 
some of the issues are border specific, as you have been 
hearing, some of the issues are irrespective of the borders. 
They affect us all wherever we are.
    In addition to my duties with the Seattle Fire Department, 
I am also privileged to serve in several national public safety 
communications roles. Not only do I help the fire department 
through these roles, but I work with the region and the 
responders throughout the Nation. Again, thank you for the 
opportunity to discuss some of these issues that we in the fire 
service have.
    Three key areas I would like to discuss include some of the 
successes that are helping us do our job, some of our concerns 
regarding a few communications issues and some of the concerns 
that we have regarding the safety of our Nation's ports. First, 
the successes.
    As you know, good information and a thorough knowledge base 
can be powerful tools. Among the many there are three specific 
resources that are making my job easier. Through the Memorial 
Institute for the Prevention of Terrorism, you sponsored a 
resource known as the Responder Knowledge Base. The RKB 
provides the means for us to quickly and easily find out 
information pertaining to grants, equipment, testing 
information, standards and more. They offer an easy-to-use Web 
site that continues to grow in popularity for the valuable 
information that provides. Again, it is a great Web site to 
help me get all kinds of information.
    Where the RKB provides information on the Web site, the 
Interagency Board for Equipment Standardization and 
Interoperability, the IAB, has a similar impact in connecting 
people. I don't know of any other entity that brings together 
such a diverse group--fire, police, law, EMS at all levels--to 
share, exchange knowledge and have a solid core of experts.
    Finally, the SAFECOM project has also been a valuable 
source of information for all sorts of communications-related 
issues. I would ask that you please continue your support of 
this program as well.
    Communications: Of the communications concerns we have, the 
first and perhaps the most important we have is the issue of 
operability. It is huge. This continues to be a buzz word--
interoperability continues to have almost a buzz word status, 
but there continues to be this huge need for just being able to 
talk to each other on a day-to-day basis. You have heard some 
of it from my colleagues here on the panel.
    An estimated, probably, 65 percent of the fire departments 
don't have enough portable radios to outfit just the people 
that are on duty to be able to talk amongst themselves. Again, 
we are talking operability. There are agencies sending fire 
fighters out the door today that can't talk to each other.
    It is my understanding that as part of implementing some of 
the 9/11 Commission's findings, you are considering legislation 
that would provide almost $3.3 billion in additional grants. I 
would ask you, please consider adding operability as a 
component of this, as well as the interoperability.
    Speaking of interoperability, we have had some great 
advancements in the technology allowed to bridge and patch 
different communications. But there continues to be a people-
person or a people-issue for interoperability. There are issues 
of credentialing, standardization, training and certification 
on a national level that we need help with.
    Some of the issues that we are experiencing on the northern 
border include 700 MHz and Nextel rebanding. It is a really 
dynamic issue, and it concerns a lot of the treaty work that is 
going on with Canada.
    One of the things I want to emphasize that is happening in 
this is, there is a lot of talk about partitioning portions off 
for data, partitioning portions off for voice. We all do our 
text messaging, BlackBerrys and things like that. But one of 
the things I want to point out is, if I go into a fire and I am 
having trouble, I am not going to whip out a BlackBerry and 
type ``Please help me now.'' I need to have preserved voice 
that is set aside because that is what we are going to go to.
    We need help with dialogue with the State Department. If we 
just knew where things were as far as these treaty 
negotiations, that would help us impact and work on our job 
better. Congressman Larsen mentioned the 2010 Olympics. One 
thing I want to emphasize here is when the international media 
comes, they fire up whatever equipment they have from their 
hometowns, and this often knocks us off the air. If there were 
some way that we could get help with dialogue again, with the 
State Department, with Canada with us and with our respective 
Customs departments, we might be able to minimize or mitigate 
some of those problems.
    Our Nation's ports: I mention our ports because this is a 
huge international gateway, especially for Seattle. Seattle has 
been dealing with some of the issues for the securing and 
trying to prevent the problems, but when these problems do 
happen, we have got to deal with the responses and the 
recovery.
    One of the big concerns that the fire service has on the 
response side is that there are two significant issues, 
overtime and backfill. Unfortunately, with the grants and 
stuff, we are getting the opportunity to plan and stuff like 
that. But we can't put companies out of service because we 
leave two big areas unprotected. So I would ask consideration 
for that.
    The next one is recovery. After we put together these big 
operations, port issues tend to take a lot of our resources and 
dump them real quick. FEMA has got a program called the 
Prepositioned Equipment Packages, or Packages On-Demand, that 
makes a huge difference. This helps reconstitute us after an 
event like that.
    Again, I would like to thank you for the opportunity to 
address you this afternoon. I would like to express our 
continued appreciation for this committee and its dedication to 
preparing us for present and future disasters both in the 
border regions and throughout our country. We appreciate your 
due consideration regarding these important Federal emergency 
response programs and your continued support of America's fire 
fighters, EMT and law enforcement.
    Thank you.
    [The statement of Mr. Lombard follows:]

              Prepared Statement of Christopher H. Lombard

    Good morning, Chairman Cuellar, Ranking Member Dent, and members of 
the subcommittee. My name is Christopher H. Lombard of the Seattle, 
Washington, Fire Department. Today, I come before you as one of our 
Nation's first-responders. My purpose today is to share insights with 
you regarding critical public safety issues, especially those that 
impact the border regions of our Country. I appreciate how very similar 
our jobs are--in that we are all united in the effort to serve the 
safety needs of citizens.
    I feel privileged to have accumulated a wealth of practical 
experience from the field and to have a diverse background in Geography 
(resource allocation), communications, firefighting and Emergency 
Medical Services (EMS). It is through these roles that I support many 
of the communications efforts of the Seattle Fire Department and the 
Seattle Urban Area. My background and experience have allowed me to 
become involved in many national public safety related efforts. 
Noteworthy among these are the following:
        <bullet> The InterAgency Board for Equipment Standardization 
        and Interoperability (IAB) \1\
---------------------------------------------------------------------------
    \1\ http://www.iab.gov
---------------------------------------------------------------------------
        <bullet> National standards development--Committee for the 
        National Fire Protection Association's Standard 1221(related to 
        Emergency Service Communications)
        <bullet> Communications policy guidance for national emergency-
        response--SAFECOM \2\
---------------------------------------------------------------------------
    \2\ http://www.safecomprogram.gov/SAFECOM/
---------------------------------------------------------------------------
        <bullet> National incident response (FEMA--Urban Search and 
        Rescue teams and Metropolitan Medical Strike Teams).
    I would like to express my sincere thanks to the committee members, 
for the opportunity to discuss some of these issues that we, in the 
fire service, have as a result of operating in, and near America's 
border regions. I would like to discuss three key issue areas:
        1. Successes
        2. Communications Issues, and,
        3. Our Nation's Ports.

                               SUCCESSES

    The first responder communities, in cooperation with our state and 
federal partners, have implemented several efforts that are having a 
positive impact on the safety and effectiveness of our work. I would 
like to thank you for your support of these very successful endeavors 
that are truly making a change for the better. While some of these 
successes are not necessarily border community specific, they have had 
a positive impact on these border communities, as well.

1RESPONDER KNOWLEDGE BASE
    The Responder Knowledge Base (RKB) \3\ is a web-based information 
service for the emergency responder community funded by the Department 
of Homeland Security (DHS) and hosted by the National Memorial 
Institute for the Prevention of Terrorism (MIPT). RKB operates as a 
public service, with no cost to users and no cost to information 
contributors such as product manufacturers. Thousands of jurisdictions 
and departments, as well as virtually all State Administrative 
Agencies, now use the RKB on a regular basis to obtain grant guidance 
and unbiased product information.
---------------------------------------------------------------------------
    \3\ https://www.rkb.mipt.org/
---------------------------------------------------------------------------
    The RKB is unique in that, while supported by the government, it is 
not an official government endeavor. This independence has allowed the 
RKB to function almost like a `Consumer Reports' for the equipment we 
use--first responders are able to describe firsthand experience with 
equipment (pro and con), opinions can be expressed, brands can be 
mentioned specifically, etc. Its users come from all disciplines (Fire, 
EMS, Law Enforcement, Emergency Management, Utilities, Transportation, 
Private Industry, etc.) and are in every state.
    The RKB continues to gain acceptance, among first responders, as 
`The First Place To Go' for finding out information pertaining to 
available grants, information about the equipment we use (with the 
ability to dialogue with other first responders about equipment pros 
and cons--based on firsthand experience), relevant standards applicable 
to that equipment, and more.
    I know of no other single source of information that remains as 
current, accurate and easy to navigate regarding the equipment we use 
and need. The RKB is adamant about being directed by the needs of the 
thousands of first responders who access it. It is my understanding 
that the RKB itself is funded through a grant application processes. 
Energies that could be focused toward greater `Information Exchange' 
for first responders must be directed toward assuring continued funding 
for the next year. I would request that the RKB be given your continued 
support and that you consider funding this valuable resource in a more 
permanent fashion.

    The InterAgency Board for Equipment Standardization and 
Interoperability (IAB)
    The IAB is designed to establish and coordinate local, state, and 
federal standardization, interoperability, compatibility, and responder 
health and safety to prepare for, train and respond to, mitigate, and 
recover from any incident by identifying requirements for an all-
hazards incident response with a special emphasis on Chemical, 
Biological, Radiological, Nuclear or Explosive (CBRNE) issues.
    The IAB's membership roster and their leadership successfully 
`eliminates the middle man' by pairing current first responders with 
federal representatives that have decision making authority. The IAB is 
``working'' because key federal program managers have partnered with 
first responders to tackle the tough issues that prevent first 
responders from getting the job done. Simply put, the IAB has been able 
to quickly and clearly communicate essential needs and translate those 
needs into tangible equipment solutions, organized efforts, new 
standards and more.
    Like the RKB, the IAB is a source that many turn to for guidance on 
best practices and I urge you consider continued support for this 
worthwhile effort.

SAFECOM
    SAFECOM is a communications program that provides research, 
development, testing and evaluation, guidance, tools, and templates on 
communications-related issues to local, tribal, state, and Federal 
emergency response agencies working to improve emergency response 
through more effective and efficient interoperable wireless 
communications.
    The SAFECOM program within the Department of Homeland is another 
program serving many different disciplines (Fire, EMS, Law Enforcement, 
etc.) and regions. We appreciate the work that SAFECOM has been able to 
accomplish in bringing our nation's first responders closer toward 
interoperability.
    SAFECOM recognizes that many locales have expert knowledge about 
what they need to improve their own respective communications. 
SAFECOM's role is to help assure that these `improvement' efforts 
around the United States are coordinated--hence gaining 
interoperability. By starting with, and emphasizing the importance of 
practitioner level support, and working from the `ground' up, SAFECOM 
has been able to achieve first-responder `buy in' of the national 
coordination efforts. They continue to involve all disciplines from all 
levels of government. We appreciate what SAFECOM is doing to unify the 
Nation's efforts towards interoperable communications amongst first 
responders (fire, EMS and law enforcement) and their supporting 
networks (federal response).
    SAFECOM has distilled valuable lessons through the execution of 
their grant guidance programs and sponsored projects. Many state and 
local communities have benefited, and continue to benefit from SAFECOM 
efforts as they strive to improve their communications systems.
    I would ask you to continue your strong support for this necessary 
and worthy effort.

                          COMUNICATIONS ISSUES

    First responders are faced with many challenges in communications 
that are starting to be resolved. We still have a ways to go on several 
of these issues, including:

Operability versus interoperability
    While interoperability has reached buzz-word status, there 
continues to be an immense and oft overlooked need for improved, simple 
operability. Before we can claim significant victories in the area of 
interoperable communications, (international, cross-border or 
otherwise) we continue to struggle with simple operability: our ability 
to just talk amongst ourselves--e.g. fire fighter to fire fighter at 
the same incident. Interoperability (``The ability of emergency 
response officials to share information via voice and data signals on 
demand, in real time, when needed, and as authorized \4\) does continue 
to be a pressing need. But again, one of the largest challenges facing 
first responders today is the lack of `Operability,' not 
interoperability--the most basic ability to communicate within a single 
jurisdiction.
---------------------------------------------------------------------------
    \4\ http://www.safecomprogram.gov/SAFECOM/interoperability/
default.htm
---------------------------------------------------------------------------
    Earlier this year, Chief James B. Harmes, President of the 
International Association of Fire Chiefs (IAFC), in his testimony 
before the House's Subcommittee on Homeland Security for the Committee 
on Appropriations, stated that an estimated 65 percent of fire 
departments do not have enough portable radios to equip all emergency 
responders on a shift. As a friend of mine, former Chief John Eversole 
(retired from the Chicago Fire Department) would likely have affirmed, 
``There are agencies sending fire fighters out the door today that 
cannot afford to equip them with a radio to talk to other members of 
their own fire fighting team.''
    When considering both on-shift and off-shift fire and Emergency 
Medical Service (EMS) personnel, it is estimated that the number having 
access to radios drops to less than 25 percent. This is significant 
because, when large incidents occur, agencies can call off-duty members 
back to duty, but they cannot equip them. It is my understanding that 
many law enforcement agencies are facing similar deficiencies. This 
continues as an unacceptable reality, and should be addressed in order 
to move forward.
    It is my understanding that, as a part of implementing some of the 
9/11 Commission's findings, Congress is considering legislation that 
would provide additional grants, on the order of $3.3B, for 
communications related equipment and efforts--These grants should 
include provisions for simple operability (not only the purchase of 
radios, but basic supporting infrastructure, local training, planning 
and governance too) as well as interoperability.
    As you institute new regulations for other, terrorism-focused 
homeland security grant programs, please preserve the `all-hazards' 
FIRE and SAFER Act grant programs--these are one of the ways in which 
public safety is working toward addressing operability.

Interoperability is a people problem--not a technology problem
    The United States has made great strides in recent years towards 
developing the hardware needed to achieve communications 
interoperability. Now we need to focus attention on those responders, 
the people, who will make this hardware work most effectively. FEMA's 
NIMS Integration Center (NIC) needs to increase its role in resolving 
some of the roadblocks. Some of the essential `people' issues we need 
them to address include:
        <bullet> National credentialing--At large incidents, local 
        agencies often call for specific assistance from other areas of 
        the country. It is important to know that those coming to 
        assist are who they say they are. The scene of an emergency is 
        not the time or place to confirm that incoming assistance is 
        both qualified and who they say they are.
        <bullet> Standardization (of qualifications)--when an entity 
        asks for, and receives assistance, there is an expectation that 
        the assistance they receive will be competent to accomplish the 
        required task(s)
        <bullet> Training--while the NIC is not expected to conduct the 
        training, a mechanism must be in place to assure 
        standardization of the training, as well as qualifications of 
        those who do conduct the training, of those who are trained, 
        and for the ongoing maintenance and updating of training 
        programs.
        <bullet> Certification--similar to credentialing, there should 
        be a central location responsible for certifying individuals 
        and tracking that certification.

Public safety access to the 700 MHz bandwidth
    The first responder community applauds recently passed legislation 
that will provide additional public safety frequency bandwidth in the 
700MHz frequency range. Of all of the discussion about the `use-
options' for this new bandwidth, it is important to keep in mind that 
there are treaties with Canada and Mexico that will be affected by any 
change in 700 MHz allocation. Some of the aggressive timelines for the 
various interoperability grants are at odds with these treaties--they 
specify the purchase of equipment for frequency ranges that, depending 
on the treaties, may not be available to us.
    A significant concern of ours pertains to those portions of the 
spectrum that are designated for voice versus those that are designated 
for data. Treaty work with Canada, regarding the initial 700 MHz plans, 
has already assured that portions of the voice communications will not 
have cross-border interference. Because the State Department has had to 
renegotiate our treaties, the 3--5 year planning process of public 
safety agencies wanting to use these bands will also experience 
setbacks.
    The importance and prioritization of clear voice communications 
cannot be overemphasized. This is important because it is 
counterintuitive to the everyday user of communications devices. 
Consider the communications devices each of you probably use every day. 
Despite the popularity of text messaging, if I am having trouble in a 
fire, or one of my friends in law enforcement is chasing someone, we 
are not likely to break out a cell phone, two-way pager or other 
messaging device and start pressing buttons! Preserving voice 
communications, free from interference, is an important life-safety 
concern.
    This year, the Commerce Department, through National 
Telecommunications Information Agency (NTIA), is in the process of 
awarding the nearly $1 billion in communications grants to public 
safety agencies, which you have generously made available. These grants 
are to be used for the acquisition of equipment for the above described 
700MHz frequency range. Unfortunately, because the frequency allocation 
plans are in flux, and we do not know the current state of our treaties 
with Canada concerning these frequencies, our ability to efficiently 
spend these billion dollars in the allotted time is being directly 
impacted. We feel strongly about our accountability both to you for 
awarding the grants, and to our public for providing the funding.
    In order to effectively implement this change in the amount and/or 
location of public safety frequencies in the 700MHz bandwidth, we would 
ask for assistance with better dialogue between the US State Department 
and those public safety representatives responsible for supporting our 
communications infrastructure (specifically pertaining to treaty 
discussions with Canada and Mexico, as relates to the relevant 
frequency ranges).
    Also, if private industry is to build out a nationwide broadband 
network for public safety use, it is critical to have a strong public 
safety presence to protect the interests of public safety. There is a 
large concern that rural areas will be left out of any private/public 
partnerships for the construction of infrastructure. The National 
Public Safety Telecommunications Council (NPSTC) recently released a 
position paper, posted July 7, 2007, that further clarifies some of 
public safety's concerns.\5\
---------------------------------------------------------------------------
    \5\ http://www.npstc.org/positionPapers.jsp

Nextel re-banding effort
    As with the 700 MHz issue, there are some aspects of Nextel re-
banding effort in which we, public safety, are unable to move forward 
without knowing the status on existing treaty information--information 
that the State Department should be able to help with. Unfortunately, 
the dialogue with the State Department has not been what it should be.
    One significant difference between the United States and Canada 
relates to public access to specific types of information--
specifically, the frequencies and locations of radio transmitters. In 
this effort, we are not asking Canada to change anything (e.g. radio 
frequencies they use and transmitter locations). If (again, through 
cooperative efforts with the State Department) those of us that need-
to-know were to have access to this information, we would be able to 
plan accordingly in the modification of our 800MHz systems so as to not 
interfere with their existing infrastructure. We are at an early enough 
stage where it is possible to alter our systems to accommodate both the 
Nextel re-banding effort and our neighbors to the north.

The 2010 Olympics in British Columbia, Canada
    While the Olympics will be physically occurring in Canada, a 
concern shared by many in our region (on both sides of the border) 
pertains to the international media. Similar past experiences have 
shown that when the international media convene at an event such as 
this, they often utilize whatever communications infrastructure they 
relied upon in their home country. A problem this presents relates to 
our first responders depending upon those same frequencies state-side, 
that the international media uses in their native countries. The 
international media's broadcasting equipment tends to be magnitudes 
more powerful than our public safety radio infrastructure and, as a 
result, components of our systems can be rendered ineffective.
    If possible, the establishment of a more formal partnership between 
the United States, Canada, our respective Customs agencies, and our 
respective first-responder communities, may be able to mitigate many of 
these specific issues before they occur.

                           OUR NATION'S PORTS

    Security and Protection
    While attention and discussion is starting to be drawn toward the 
security of our Nation's borders, our ports continue to be a proverbial 
``open back door.''
    To provide a practical example, the crew of a container ship 
visiting Seattle has to send advance notice of its ``14'' crew members 
several days before actually reaching the port. But those individuals 
intent on harming us could fill two containers, of the estimated ``. . 
.an 11 million containers entering the United States annually. . .'' 
\6\ with 20 individuals each, including most anything they can carry 
(short of radiological goods), and with only 1000 US Customs and Border 
Protection inspectors for more than 360 ports (ibid), they stand a good 
chance of entering this country illegally and undetected.
---------------------------------------------------------------------------
    \6\ http://hutchison.senate.gov/speech515.html
---------------------------------------------------------------------------
    As with trying to prevent all fires by implementation of the fire 
code, incidents still do, and will happen.

Response
    As just one point of reference, the ports of the Greater Seattle/
Puget Sound Area, collectively, are among the largest ports in the 
nation. Last year Seattle area ports hosted over 735,000 cruise line 
passengers. We had over a thousand vessel call our ports. In 2005, we 
moved $70.5 B worth of goods through the area.\7\ We have a robust 
fishing industry, oil refineries, and a thriving private sector marine 
community. The Navy also maintains a large presence with at least one 
carrier task force, the Bangor Submarine Base, and the Bremerton Naval 
Shipyard.
---------------------------------------------------------------------------
    \7\ http://www.portseattle.org/seaport/statistics/
---------------------------------------------------------------------------
    The Puget Sound waterways encompass over 1,000 square miles and 
include over 1,000 miles of shoreline. Currently, there is only one 
fire boat staffed 24 hours a day for this entire area. It is my 
understanding that these `understaffing and inadequate resources' 
issues are commonplace amongst our nation's ports. While some of these 
capitol outlays (e.g. fireboats) are very expensive, often costing $12 
M or more, they do last longer than other equipment (40+ years).
    America's first responders need help acquiring the tools, training 
and means to mitigate these incidents that are going to happen. When an 
event occurs at any of our nation's ports, the first response of 
employees, federal (U.S. Coast Guard, U.S. Customs) or otherwise, is to 
call 9-1-1, just as they did with other federal offices like the Murrah 
building in Oklahoma City and the Pentagon. . . And, that brings the 
discussion back to the nation's first responders--fire fighters, law 
enforcement and EMS. For the high risk/low frequency events that happen 
at our ports, we need help purchasing fire boats, port/marine 
firefighting equipment, hazardous materials equipment and supporting 
the associated training.
    It will probably be asked why public safety has not purchased this 
equipment with the grant funds already offered. As referenced in the 
communications sections previously, it is a matter of prioritization--
we need to be able to communicate effectively before we can do anything 
else.

Recovery
    Daily, first responders are responding to emergencies in our ports 
and, most of the time, they successfully mitigate the situations they 
find. Occasionally, in doing so, they will lose much of their equipment 
to severe contamination (e.g. chemical, biological, and radiological). 
A case in point included many of the local agencies in our gulf states 
(Florida, Alabama, Mississippi, Louisiana, and Texas) immediately 
following Hurricane Katrina.
    A successful effort started, by Congress a number of years ago, 
developed emergency caches of first responder equipment to assist with 
the rapid reconstitution of a local department's protective clothing, 
the department's communications equipment, their breathing devices, 
etc. As mentioned previously, regarding communications equipment, after 
a large incident, public safety can quickly recall significant numbers 
of off-duty members, but we do not have the equipment to outfit them 
all. FEMA is now supporting this project--The Pre-positioned Equipment 
Packages, Package on Demand (PEP POD). This program more than proved 
its merit in both concept and value.
    Unfortunately, it is starting to slip `under the radar,' and 
succumbing to the old adage, ``out of sight, out of mind.'' Several of 
the PODs were deployed during Katrina and have yet to be replaced. In 
the remaining PODs, some of the equipment purchased over 5 years ago is 
nearing its expiration dates and is in need of upgrading or 
replacement. Field support staffs for the program have not received 
necessary subsequent, or refresher training and some critical 
certificates have expired.
    This is another federal program that was making a huge difference 
in recovery and had demonstrable successes! Many fire and EMS agencies 
in Louisiana and Mississippi were able to get quickly back on their 
feet. Again, the program is in jeopardy and I would hope that you 
consider continued support.

Exercises
    Public safety agencies need continued support for training and 
exercises on a regional and international level which include backfill 
and overtime. These types of events are beyond the budget/scope of any 
single jurisdiction. Further, because it often results in large areas 
of our respective districts being without coverage, the fire service is 
hard-pressed to place multiple companies out of service for the 
purposes of training and exercises.

                               CONCLUSION

    Again, thank you for the opportunity to address you this afternoon. 
On behalf of the nation's first responders, I would like to express our 
continued appreciation to this committee for its dedication to 
preparing America's first responders for present and future disasters, 
both in border regions and throughout our country.
    We appreciate your due consideration regarding these important 
federal emergency response programs and your continued support of 
America's fire fighters, EMTs and law enforcement officers.

    Mr. Cuellar. Thank you again for your testimony. I want to 
thank all the witnesses for their testimony.
    I remind each member that he or she will have 5 minutes to 
question the panel. I will go ahead and recognize myself for my 
questions.
    To the folks that represent the border area on the southern 
part, let me ask you this question: According to the report of 
the Good Neighbors Environmental Board, the Independent Federal 
Advisory Board, first responders from the United States are 
sometimes called to respond to emergencies in Mexico. The 
report states, however, that responders near the border are not 
able to easily cross the border to respond to incidents because 
of insurance liability, national sovereignty and command 
issues. Furthermore, it states that the Customs and Border 
Protection often makes it difficult for the first responders to 
come back into the United States after they had just crossed to 
respond to an incident in Mexico.
    Have any of these problems affected your ability to respond 
to emergencies along the border?
    Chief Sosa. Yes. It is one of the biggest problems we have. 
The reason is that we--the insurance for our fire fighters and 
any first responders, it is only 15 miles into the Mexican 
side.
    But one of the biggest problems we have there is, on the 
Mexican side there are a lot of hazards that pass through 
Laredo. There are 10,000 trailers per day that pass through 
Laredo, and half of them have hazardous materials. So you can 
imagine if something happens on the Mexican side, it is very 
hard to go in and do any kind of incident.
    For example, if you have a chemical spill on that side, it 
is very hard for us to go. And besides, Mexico doesn't have any 
kind of resources or funding for this type of deal.
    What we try to do is train the people from Mexico because 
we have an $11 million training facility, but no moneys for 
training people. But we do do some training for us and for 
them, so--to help us in case there is a hazardous spill in 
Mexico.
    For example, every day--this is a constant thing that 
happens every day in Mexico. They burn tires, and because we 
have winds from the southeast, all that smoke from tires comes 
into the Laredo side. We, over here, are very strict on 
environmental protection, but on the Mexican side there isn't. 
So you can imagine every day getting this smell of tires and 
all this smoke, this hazardous smoke that comes into the Laredo 
side. It is very important.
    But like I said, we don't have any funding, we don't have 
any equipment. We do have equipment for hazardous materials 
because what happens is, in Laredo--1990, the NAFTA trade went 
though, and 40 percent of the NAFTA trade passes through 
Laredo. So it is important for us to learn about hazardous 
materials.
    Mr. Cuellar. OK. Anybody?
    Ms. Morrison.
    Ms. Morrison. Chairman Cuellar, in Arizona we have the same 
and similar-type issues. What we have been able to do, using 
State money and a very little bit of Federal money, is we are 
performing binational exercises so that it does open the lines 
of communication. Unfortunately, it is very difficult because 
the Mexicans do not have the funding sources at all to be able 
to actually participate at the level we would like them to and 
have that communication across the border.
    But your border issue question is very relevant, and it is 
very difficult to go across the border, and especially in a 
hazardous situation.
    Mr. Cuellar. OK. One of the things that we see is, you see 
big communities and then, of course, the small communities. And 
sometimes I feel that the small communities, that many times 
have few resources to combat crime, drug trafficking and 
security issues, the smaller communities are very vulnerable 
and often are overlooked in the big picture when it comes to 
homeland security grants.
    How can we, as Members of Congress, better help the smaller 
communities along the border to respond to the emerging threats 
that they have to deal with on a day-to-day basis? Open to, Mr. 
Kessler, Mr. Elfo.
    Mr. Elfo. I believe having some form of coordination, a 
homeland security coordinator to coordinate with local border 
agencies would be a help, a one-stop shop, somebody you could 
take those issues to.
    And the other would be to establish regional joint 
emergency operation centers strategically along the border that 
would interface with all the key players on the U.S. side and 
those of our neighbors to the north or the south.
    Mr. Cuellar. OK. Mr. Kessler.
    Mr. Kessler. Mr. Cuellar, I believe that the Congress could 
help by--I am not sure how to go about it, but make the funding 
easier to access for the smaller communities. As I stated 
earlier, at least with the tribe and, I know, some of the 
smaller communities in the counties that I am familiar with, 
the funding stops at the county. They use the funding for what 
they feel is going to benefit the smaller community, and that 
isn't always necessarily the case.
    So making the funding easier to access by the smaller 
community would be a great help.
    Mr. Cuellar. Yes, ma'am.
    Ms. Morrison. Mr. Cuellar, Arizona receives Operation 
Stonegarden funding, and I am sure, as you are well aware, it 
is a limited amount that is split between Arizona, California, 
New Mexico and Texas. Arizona this year received about $6.35 
million. That is only useable for equipment and overtime for 
the first responders on the border.
    The problem from these local jurisdictions, smaller 
jurisdictions--you are asking what can be done. It is very 
difficult because these grants are predicated on a 
reimbursement policy. So if you take a very small town that 
doesn't have $70,000 in its budget to buy some type of armored 
vehicle, they cannot purchase it because that is the process it 
has to go through.
    So it would be my recommendation that there be a procedure 
that would allow them to get the money up front as opposed to 
them having to pay for that and then wait for reimbursement. 
And we try to get them reimbursed as fast as we can, but 
sometimes the request takes months.
    Chief Sosa. One of the biggest problems down in south Texas 
is--like Laredo, Laredo is the biggest border city within 200 
miles. We have to take care of the small counties. We, Laredo, 
or the counties that we are under--the Council of Governments, 
we got $240,000 from the Department of Homeland Security--
money, preparedness. $240,000. Now, you divide that within five 
counties, this is all the money we got in that area, and the 
reason is because of your census formulas.
    We are a small city, 250,000. But yet we cover 600,000 
people on the Mexican side and a lot more other small counties, 
but we only got $240,000. So the formula part is not working 
for us as a border city. We need to have a special priority or 
do something better than doing the census because--I think 
threat or risk would be a good factor.
    Mr. Cuellar. OK. Thank you.
    At this time I would recognize the ranking member, the 
gentleman from Pennsylvania, Mr. Dent, for questions.
    Mr. Dent. Thank you all for your testimony. And I guess I 
will start with Chief Sosa.
    I visited Laredo last year with Chairman Cuellar and a few 
other Members of Congress, and I was struck by some of the 
stories I had been told about, really, the police department on 
the other side of the border in Nuevo Laredo and how they fired 
the whole police department. And it seemed that the interaction 
between law enforcement on the Mexican and American sides 
wasn't really what it ought to be because of corruption issues 
on the other side of the border.
    What is your relationship with your peers in the fire 
service on the other side of the border? How much mutual aid? 
How often are you called over there to an incident?
    Chief Sosa. We have a binational agreement, but it is one-
sided, sir; and the reason it is one-sided is because Mexico 
has no kind of resources or equipment.
    What I try to do, I try to give my old equipment or hand-
me-downs to them or anybody in Mexico.
    Mr. Dent. How often are you called, I guess more 
specifically, to respond on the Mexican side in some kind of 
mutual aid situation?
    Chief Sosa. From the American side to the Mexican side? It 
doesn't happen that often. The reason we don't do it as much as 
we used to is because the chief from Nuevo Laredo told me to 
stop coming because this way they can show the people from the 
Mexican side that they need equipment and funding. So we have 
stopped doing it.
    But we still, when it gets to the point where it might be 
hazardous to the city of Laredo, I call the chief and I tell 
him, you know, we are coming. I don't care. Because both of 
you, you know it is going to hurt us. If something happens on 
the Mexican side, you know it is going to come to our side.
    If it is health issues, like TB or any kind of a disease 
that happens in Mexico, people walk--30,000 people walk--per 
day walk the bridges in Laredo.
    Mr. Dent. Those are generally commuters going back and 
forth to work, right?
    Chief Sosa. Yes, sir.
    Mr. Dent. I would like to shift over to Mr. Lombard and to 
Sheriff Elfo.
    It has been mentioned that the Olympics are coming to 
Vancouver in 2010. Could you just kind of give me a sense, 
Sheriff, as to what preparations first responders in the border 
region have begun to make for these games?
    Mr. Elfo. Well, they have put a Federal official in charge 
who is coordinating the response, and we are scrambling to get 
funds to try to build an interoperable communications center 
and a joint emergency--to achieve interoperability and full 
communications throughout the county. As my colleague said, it 
is not just an interoperability issue, it is an operability 
issue.
    And we are also trying to phase in a joint emergency 
operation center that we could operate under the Incident 
Command System and coordinate what we are doing not only with 
our U.S. partners, but our Canadian partners as well. We 
believe the impact will be significant with people traveling to 
visit the Vancouver area for the Olympics, and we will have an 
increase in the size of the population and border backups and a 
lot of vulnerabilities during that time.
    Mr. Dent. And I guess, to Mr. Lombard, you started to talk 
about some of the challenges with the operability, 
interoperability of communications. And I guess what really the 
question is, how really is Washington, the State of 
Washington's State plan being affected by the ongoing 
negotiations with Canada to reassign the spectrum and the 800 
MHz range to public safety agencies? You mentioned there were 
going to be some problems at that time, you having access to 
that range.
    Mr. Lombard. Thank you. Our State plan is--for one, our 
State plan is still in development right now, and what we are 
doing is, we are taking some of the different regional plans 
from the State and trying to put them together.
    As far as some of the interoperable issues, what we are 
trying to do is, there are some informal discussions and 
meetings that occur between some of our communications folks 
and their counterparts on the Canadian side. But again, those 
are informal and we are trying to formalize those.
    One of the big differences between the Canadian side and 
ours has a lot to do with the freedom of information. For 
example, their antenna site locations and the frequencies that 
they broadcast on are restricted information. So, first, on 
issues like the Nextel rebanding and stuff, there are things 
that if we knew the information, it would be easy for us to 
reaccommodate so that we are not putting the same tower, same 
frequencies, you know, 100 yards across the border from each 
other. If we had the ability to have that dialogue, then we 
would be able to relocate that tower, say, in southern 
Washington instead of right on the border.
    As far as the Olympics, again it is kind of the same thing. 
There are informal communications going on right now as far as 
what are they trying to accommodate, what they are agreeing to. 
But the missing key here is kind of where the State Department 
is as far as negotiations and treaties. We just don't know.
    Mr. Dent. Well, thank you, Mr. Chairman. I see my time has 
expired, and I will yield back.
    Mr. Cuellar. Thank you, Mr. Dent.
    The Chair will now recognize other members for questions 
they may wish to ask the witnesses. In accordance with our 
committee rules and practice, I will recognize the members who 
were present at the start of the hearing based on seniority on 
the subcommittee, alternating between majority and minority. 
Those members coming in later will be recognized in the order 
of their arrival.
    The Chair now recognizes for 5 minutes the gentleman from 
North Carolina, Mr. Etheridge, for his questions.
    Mr. Etheridge. Thank you, Mr. Chairman. And let me thank 
each of you for being here. You know, the challenge of training 
and multijurisdictional communications has got to be something 
most of us don't think about. You know, we think about the 
interoperability of communications within counties and cities 
within the United States. We don't think about those that cross 
the borders.
    And we know that interoperable communications also have a 
technological component. But at the same time--and we have 
tried to help in this committee with funding and we have pushed 
it to the extent we can, but there is also a human component, 
and you have touched on that.
    That human component is interoperability of individual 
police, fire, Border Patrol, first responders, et cetera, and 
border agents. And these are the brave men and women we depend 
on every day to get the job done, and they really are on the 
front line of protecting all of our communities and really our 
country. So each of you have--this task is further complicated, 
I guess, by having to deal with any entity across the border 
where most communities don't have that.
    So I would like to explore that a little further with you, 
Chief Sosa. You touched on it a little bit about the problems 
you have with all the traffic moving through Laredo. Most 
people don't think of that when they think of the border issues 
that you have shared with us today, with all of the hazardous 
material, et cetera, between Laredo and Mexico.
    Clearly, you talk about a partnership but we really need a 
binational partnership with Mexico. I mean, it is much bigger 
than just a city, Laredo with our sister city or even the 
community. It is really a national working relationship, not 
just with Mexico, similar to what we are doing with Canada and 
others.
    So my question is, to what extent do you both train with 
your counterparts? You have touched on that a little bit. And 
what subjects do you train on? And are there standard operating 
procedures similar or close to what you use in an emergency, 
say a bomb threat, Hazmat, a chemical spill? Will you do the 
training so you know in advance what you can expect if you are 
working together when you do have an emergency? And finally--
how do you communicate on a daily basis or when you have an 
accident? And finally, how do you share intelligence, if you 
do?
    Chief Sosa. OK, sir, Mr. Etheridge.
    Mr. Etheridge. Sheriff, I would like you to answer that one 
too.
    Chief Sosa. OK. One of the things--the city of Laredo has 
been very supportive of public safety, and what the city has 
done with no Federal funding was to build an $11 million 
training facility. We train people in hazardous material, we 
train them in fire fighting, in health issues, in swat. It is 
called the Laredo International Fire and Law Enforcement 
Training Facility. It is on the Web site, city of Laredo.
    And the greatest thing, we can do it in Spanish. We do it 
in Spanish. We have done people from Puerto Rico; we have done 
people from Argentina, Guatemala, and especially Mexico.
    Talking about sister city, the city of Laredo has 13 sister 
cities. So you can imagine all these people coming to Laredo 
and trying to get some kind of equipment from us. And it is 
very hard to reject these people when they come in.
    But one of the things that we try to do is do training. 
There is no Federal funding for training for both sides. This 
is something that is really needed on the borders because you 
have to train the people on the other side, including law 
enforcement, fire, health services; and we do it free. We do it 
to the point just because we are there and because we need to.
    For communications, it is very hard, sir. They don't have 
any kind of communication. The city of Laredo got $1.4 million 
from homeland security to put in some kind of communication. 
The city of Laredo had to put in $8 million to just get it off 
the ground because it was to the point that if a burglar in the 
downtown city of Laredo was running towards the border, police 
and the Border Patrol could not communicate. And it is still to 
that point.
    Or because it is a border city and it is close to Mexico, 
your communication breaks down. There is no communication 
between the river, but yet anybody can cross the river, 
swimming, or running across the border. And this is very hard. 
You can't communicate with people from Mexico. The only way you 
can communicate is by phone right now.
    Mr. Etheridge. Mr. Elfo?
    Mr. Elfo. We have had several incidents that we have worked 
with the Royal Canadian Mounted Police, and they pretty much 
have jurisdiction along the entire border that we share in 
multiple detachments. And when we do, we physically put a 
person on the Canadian side, they put one on the U.S. side to 
achieve interoperable communications.
    We operate--actually we have had some major demonstrations. 
We have worked in a unified command center. We have had the 
Canadians working together. We have jointly made decisions.
    We have a park that straddles the border, and there is no 
Customs checkpoint in between. You can walk back and forth as 
long as you stay in, and it has become a site of some pretty 
significant demonstrations, and we have worked very well with 
the RCMP.
    As far as response from Canadian fire, we have actually had 
their hazardous materials team come down and help us. We have 
had a number of joint exercises where we have simulated attacks 
on the border, chemical spills and the like; and we have worked 
very hard together. But that doesn't alleviate the need for 
people to have interoperable communications.
    Mr. Cuellar. Thank you very much. At this time I will 
recognize for 5 minutes a gentlewoman from the Virgin Islands, 
Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman, am sorry I was 
late. As my colleagues said, you have a bit more challenges 
than people who are not at the border, and my district being in 
the U.S. Virgin Islands, some places less than 3 miles away 
from the British Virgin Islands. We share some of those issues, 
this is an interesting and important hearing to me.
    In the absence of agreements, international legal 
constructs that go beyond Federal agencies, has there been any 
activity, any assistance coming from Homeland Security or any 
other Federal agency to begin developing those constructs at 
your levels.
    Chief Sosa. Ma'am, I am glad you asked that question. The 
City of Laredo, they do a couple of Federal functions that the 
city doesn't get any funding for. For example, body recovery on 
the river. We have, over this year, we are close to 67 body 
recoveries and rescue on the river. The City of Laredo does it 
now. We are talking about international waters.
    Mrs. Christensen. Right.
    Chief Sosa. There is no Coast Guard. Border patrol will not 
do it, they will hover and tell us where it is, but the person 
who will go get it is us, is us, the first responders, we will 
get there. It is not as easy as launching a boat at a dock, 
because there is no dock, there is a cliff. And you can not put 
a launching put a launching pad because environmental won't let 
you, the water commission won't let you, and also it takes a 
lot of permits to do little small launch. So it is very hard to 
do.
    For example, the bridges we do bomb threats almost twice a 
day, bomb threats on the bridges of Laredo, yet the first 
responder, the fire department is the one who does the sweep. 
Police has one bomb dog, they can not use that bomb dog because 
his keen smell for bombs won't be there. So if you are having 
two per day or 10 per week, they won't use it. Who do they use? 
The first responder who does the sweep, the City of Laredo Fire 
Department.
    Mrs. Christensen. There is no reimbursement? I am assuming 
these are Federal----
    Chief Sosa. Yes, it is in the Federal Customs Border side. 
We go half of the bridge does it, and Mexico does the other 
half. When you are doing this, you stop commerce. Millions and 
millions of dollars are lost because you are stopping for a 
bomb threat. It takes at least 20 to 30 minutes to do the 
sweep. Like I said, 40 percent goes through Laredo, all your 
cars, all your broccolis, all your vegetables, your suburban, 
everything is stopped in Laredo for that moment. So imagine the 
threat there is if there is a bomb that might devastate the 
bridges, but yet first responders go up there without any money 
or equipment or resources.
    Mrs. Christensen. Anyone else want to respond?
    Mr. Lombard. Yes. One current effort the government is 
doing to help, they are just starting now, we mentioned that 
inoperability is quickly becoming a people issue. There are a 
couple of efforts within DHS, particularly in SAFECOM and 
FEMA's center. They are putting together, starting to develop 
plans now on training communications unit leaders at the local 
level. The idea or the concept is that we are going to give 
people in the local areas the tools so that they can help 
resolve their own problems, teach them who they should be 
seeking out, the questions they should be asking, some of the 
things they need to be considering so that it is irrespective 
of the borders.
    Mrs. Christensen. Are they helping to develop the kind of 
agreements that you need to have in place so that you have that 
legal foundation for operating one----
    Mr. Lombard. Not yet, they are working on helping people 
know what questions to ask.
    Mrs. Christensen. Ms. Morrison.
    Ms. Morrison. Representative Christensen, in Arizona, what 
we have done is created a network called Se Quatro, it is 
dealing with four regions from Nogales, Arizona into Nogales, 
Sonora. The technicalities can wait, but the bottom line is our 
first responders can radio a question to Nogales Sonora, 
Nogales Arizona, then that question is radioed to Nogales 
Sonora. There is a real-time response, but it is literally a 
patchwork of radio communications across the border, that is 
all we have right now.
    We have been told in early 2008, the FCC will no longer 
allow the Mexicans to utilize that wavelength, so we will no 
longer have that type of communication across the border.
    Mrs. Christensen. Go ahead.
    Chief Sosa. Could I add one thing? When you do that, you 
have to talk in Spanish, so if you are not a bilingual person, 
there is no way of communicating. You have to realize you are 
talking to a Third World country. That is the reason it is very 
hard, because these people, the Third World country don't have 
any resources or funding. They see the United States as the 
cousin, but yet no funding goes through that area. For example, 
in Laredo, 250,000 population in Laredo, but in Mexican side, 
there is 600,000, almost more than half a million people there. 
But yet there is no funding for them. When we do our census, 
you only see city of Laredo you don't see both. I can't count 
the formula, but the risk is there.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Cuellar. To turn this around a little bit, we would 
like to write down your questions. We have been asking you 
questions, you have had an opportunity to put in testimony. If 
you want to give us a question that you would like to ask us on 
areas that you think we are ought to be focusing on, what would 
that be and I will start off with Ms. Morrison.
    Ms. Morrison. One pointed specific question at this point 
which is becoming very real in the near future with the 
inoperability grant that is being given to the States by the 
Department of Commerce, they are following the pattern of 
having 80 percent go to the locals, 20 percent to the States.
    If we are really trying to come up with a nationwide 
interoperability plan and a statewide interoperability plan 
that will piggyback, then the question to the grant holders, so 
to speak, is why wouldn't you want to give 100 percent of those 
funds to the State? Let the State be responsible for doling out 
that money as needed statewide. We know what our needs are and 
that doesn't make the State the overseer of what is being 
utilized locally.
    Mr. Cuellar. OK, thank you.
    Ms. Morrison. That was a great question, format.
    Chief Sosa. Congressman, what if the City of Laredo decides 
no more Federal function? What if they decide to say, you know 
what, I am not going to do any more body recovery. You know 
what, I am not going to take care of the bridges. I am not 
going to do hazardous material because we don't have the 
resources or funding.
    Those are the questions that are asked every day by the 
union of the City of Laredo and other border cities. Why should 
we be doing Federal functions if we don't get the money? This 
is one of the most important questions that they are asked 
everyday, especially in the south border or for radios, how can 
we communicate regionally or if I want to communicate with 
California through Texas, how can we do it? Through Washington 
how do we do it? It is very important to have some kind of 
regional for border cities.
    Mr. Cuellar. Thank you.
    Mr. Elfo. Mr. Chairman, we have a lot of Federal resources 
in terms of law enforcement in our communities, but the Federal 
Government doesn't provide the infrastructure to support them. 
As I said, 80 to 85 percent of the cases are prosecuted in our 
local courts. Our jail was designed for 148 inmates and we have 
300 in there now.
    If we are going to provide the enforcement, catch more 
people we need the infrastructure to support it, it would take 
a system wide approach. I know on the southern border in some 
of the States, there is some reimbursement provided for the 
cost of prosecuting persons apprehended by Federal law 
enforcement and turned over to the State for prosecution. There 
is no similar provisions for the northern border.
    We handle 160 fugitives a year from all over the country 
apprehended primarily by the Federal agencies, primarily. The 
vast majority of drug smuggling cases that are smugglers 
apprehended by Federal authorities, stolen cars, kidnappings, 
you name it, we have it. We could use some help adding 
prosecutors, courts and adding personnel in law enforcement to 
be able to address that. That's what my question to you would 
be.
    Mr. Cuellar. All right, thank you. Mr. Kessler.
    Mr. Kessler. Strictly from a tribal perspective, 
traditionally tribes have not had good working relationship 
with the States and the counties because the sovereign nation 
aspect gets in the way sometimes. My question would be, why 
can't tribes be recognized on the same level as the States and 
have access to that funding without, and nothing against the 
States, but without having to depend on them for the 
disbursement of that fund?
    Mr. Cuellar. Mr. Lombard.
    Mr. Lombard. Mr. Chairman, my question will sound very 
similar to Mr. Sosa's. The ports last year had over 3 quarters 
of a million people go on cruises, we did over $70 billion 
dollars in commerce coming in and out of our ports, second only 
to Norfolk, we have one of the largest Navy presences, we have 
a carrier task force, the home of the tried and sub fleet, we 
have Bremerton naval shipyard.
    My question would be with one fire both protecting the 
area, what would you like us to protect first or what would you 
like to us not protect?
    Mr. Cuellar. All right. Thank you. I appreciate it. With 
this type of format there is a structure where we ask you to 
speak for 5 minutes, and we ask a couple of questions, but I 
always want to get a two-way dialogue so I really appreciate 
this.
    I think this is all the questions, Ms. Christensen. So this 
time, I want to thank all the witness for their valuable 
testimony and to the members of their questions. The members of 
the subcommittee may have additional questions for the 
witnesses, and we ask you to respond to them as soon as 
possible in writing to those questions. Having no further 
business, this hearing is adjourned, thank you.
    [Whereupon, at 3:17 p.m., the subcommittee was adjourned.]


                               Appendix A

                              ----------                              


                         Supplemental Testimony

                                   Of

                         Hector Gonzalez, M.D.

                           Director of Health

                             City of Laredo

    1. INTRODUCTION
    Good morning Chairman Cuellar and Members of the Subcommittee on 
Emergency Communication, Preparedness and Response. My name is Doctor 
Hector F. Gonzalez; I am the Director of Health for the City of Laredo. 
My colleague Chief Luis Sosa, Chief of the City of Laredo Fire 
Department is addressing you today in person to provide testimony on 
our unique needs based issues as first responders and emergency care on 
the border. I am submitting this addenda to the Chief's testimony. I 
have every confidence that Chief Sosa can address any immediate 
questions you may have on public health threats and our unified 
response in Laredo, a Texas-Mexico Border City.
    I have provided public health care for over thirty (30) years. In 
contrast to private medicine, public health keeps our community disease 
free and promotes wellness and prevention. We want to keep people well.

    2. CHALLENGES ON THE BORDER
    Nowhere are these activities more vibrant and yet challenging than 
on the Texas-Mexico Border.
        <bullet> Infectious diseases and co-morbidities are critical. 
        Laredo has one of highest rates of Tuberculosis in Texas.
        <bullet> There is a critical lack of access to health care 
        (over 50% of our citizens are un/underinsured).
        <bullet> There is a critical lack of access to health care 
        professionals. We are a HRSA health professions shortage area 
        and we lack appropriate equipment for services and adequate 
        communication which all add to the challenges.
    Yet our resiliency has assisted border communities like Laredo to 
flourish despite the odds. From El Paso to Brownsville, Texas first 
responder responsibility includes addressing infectious and all hazards 
threats.

    3. THE NEW FIRST RESPONDER PARADIGM
    After September 11 , the first responder paradigm changed. This is 
especially so after the anthrax attacks. No longer do we view first 
responder and preparedness in the same way. Nowhere is this more 
evident than in Laredo where the Chief of Police, Fire Chief and I work 
intimately close to respond to all hazards: biological, chemical and 
radiological. Yet Laredo has always worked in this manner, maximizing, 
regionalizing and being innovative because we have always recognized 
that it is our community but everyone's border to protect. Most 
importantly however, resources have always been insufficient and 
therefore we created our own response expertise. We respond to all 
hazards to contain disease, prevent the spread and provide immediate 
care of individuals affected as well to protect the public. For us, it 
is routine to respond locally, regionally and internationally. We are 
the state and federal responders, as there is no one else to respond, 
and we recognized this a long time ago. On the border, issues may be 
international in scope, but the response to the threat will always be 
local! This is why we developed are own team of experts especially for 
all an hazards and public health response.

    4. LOCAL RESPONSES TO INTERNATIONAL THREATS
    Let me share a few examples of interventions.
    (1) Severe Acute Respiratory Syndrome (SARS)
    During the world-wide Severe Acute Respiratory Syndrome (SARS) 
threat, there were five (5) mainland Chinese nationals traveling 
through Mexico City and entering the United States illegally through 
the Freer, Texas border post. The Customs and Border Patrol called us 
in Laredo to inform us that two of Chinese nationals had a fever. 
(Please note, it was not a Laredo Border crossing but individuals in 
Freer, Texas, an hour's drive.) We respond and conduct a rapid and 
immediate thorough investigation, instituting quarantine and isolation 
procedures for the prevention and protection of all. This effort 
included a response to protect over 30 federal agents, 25 Mexican and 
Central Americans (caught with the Chinese) as well the wellbeing of 
all Laredoans. We also had to deal with federal and state health and 
immigration authorities from both countries. The City of Laredo Health 
Department (CLHD) made it our immediate responsibility to assure the 
protection of all and the disease containment to prevent a potential 
spread of a highly communicable disease that could have impacted the 
nation. This was the responsibility of federal authorities but we are 
the only ones able to respond. While we have a Centers for Disease 
Control and Prevention (CDC) quarantine station in El Paso that covers 
New Mexico and Texas, they only have 3 persons. We work wonderfully in 
partnership with them but in the end we provide all of the local 
investigations and response, training and prevention efforts not only 
for Laredo but for the region as we care for 4 other counties as well. 
Both Chief Sosa and our staff are continuously responding to all 
hazards including assuring the appropriate storage of Cobalt 60, 
assuring the safety management of illegally discarded hazardous 
materials and the safety of food and water supplies.

    (2) TB
    Finally I am sure all of you have heard about the quarantine and 
isolation of the person with TB with XDR who traveled worldwide. The 
whole nation is concerned and I understand there are hearings on this 
matter. Well this is an everyday threat for us on the border. We don't 
need any exotic or biological weaponized threat; there are everyday 
communicable disease threats to the public that are equally lethal.
    One of our cases in 2006 involved two family members (one in Laredo 
and one in Nuevo Laredo Mexico). We immediately intervened 
(internationally) since members lived on both sides of the US-Mexico 
border to get all family members tested, confirmed, treated and 
followed. When we finished the investigation, we had tested over 40 
family members and 3 were positive. These were immediately confirmed, 
treated and followed as active TB which needs treatment for at least 6 
months with multiple medications. It is imperative to assure compliance 
to avoid drug resistance which is a problem today and in some cases (as 
in the case all of you have heard about) there is a rare extremely 
multi-drug resistant strain. In our situation, the 3 cases were family 
members in San Antonio (150 miles away) Dallas (over 400 miles away) 
and in Chicago. If we did not have the surveillance detection system to 
intervene quickly, test, confirm, treat and follow these cases, they 
would have gone undetected putting hundreds if not thousands of people 
at risk.
    Yet we have faced a 30% reduction in funds over the last 2 years 
affecting our public health response infrastructure. Today we do not 
have adequate infection control response staff, equipment for services 
with an isolation and response vehicle and appropriate communication 
systems is still lacking. Our staff responds with limited resources and 
equipment and in their own vehicles which are not appropriate for our 
terrain and protection against potentially communicable diseases and 
hazardous exposure. This is not an appropriate response. If our staff 
fall and fail to protect and prevent not only is Laredo at risk but the 
state and nation as well.
    We ask that you consider providing adequate resources for services, 
staff and equipment not based on formulas and standards that are used 
for the rest of the nation. Our United States-Mexico Border and in 
particular the Texas-Mexico Border, specially Laredo as the major 
inland port of entry, must have adequate resources to respond based on 
our unique response responsibilities to all threats. We must have the 
appropriate staff, equipment, vehicles to respond as well the proper 
tools to isolate and quarantine, after all what happens in Laredo 
affects the entire nation. If we protect and respond appropriately in 
Laredo, we protect the public's health and wellbeing of the country.

    5. CONCLUSION
    The US is under a constant threat of an intentional or 
unintentional medical or biological attack. In Laredo we say: ``When 
Nuevo Laredo, Mexico coughs, Laredo gets the cold.'' Disease does not 
respect a border, a wall or even the most professional of custom and 
border patrol agents.
    When you think of the potential public health threats that can 
cause epidemics, contaminate our water or food supply, there is no area 
more vulnerable than the US-Mexico Border. In Laredo, we are proud to 
provide a first line of defense for our community and the nation. We 
just need help with the resources to meet these demands.
    I want to thank you for allowing me to provide this written 
testimony. I know Chief Sosa is providing immediate answers to any of 
your questions but I will glad to answer any additional questions you 
may have as well.


                               Appendix B

                              ----------                              




       US-Mexico Border Public Safety and Public Health Response

                The Need for a Federal-Local Partnership

Background
    The City of Laredo provides its local citizens and the nation a 
comprehensive public safety and public health response to threats at 
the border. Laredo provides:
        <bullet> A unified approach of police, fire and public health 
        first responders to ensure safety, security and public health 
        disease control and preparedness.
        <bullet> Training, planning and support for disease control and 
        prevention through its public health authority.
        <bullet> Support for our federal and state partners in 
        responding public health and safety hazards challenges.

Challenge
    Despite Laredo providing these national defense services, Laredo is 
not a direct beneficiary of any of the new DHS programs because federal 
funding for homeland security has been limited to US census data. 
Funding formulas must be changed to address threat levels and services 
provided to the nation. Laredo is providing the services. It is time 
that the nation provides Laredo with a fair share of the resources 
needed for these efforts.

Solutions:
    Federal funding for homeland security and public health response 
initiatives must compensate local communities that are providing 
protection to the nation. The easiest way to accomplish this goal is to 
create a border category in all funding formulas.

    There are also specific steps that the Congress can take to address 
these challenges:
        <bullet> UASI should be changed to make proximity to the border 
        a threat criterion and funding should be available for people 
        and equipment required to meet threats to the nation's health 
        and safety. Laredo provides more public health responders and 
        public safety responders on the border than the federal 
        government, yet it is not eligible for direct funding.
        <bullet> The Port Security initiative must be modified to 
        include all major ports, not simply water ports. The City of 
        Laredo is the nation's largest inland port on the U.S. Mexico 
        border, yet it is not eligible for port security funding.
        <bullet> International Bridges should be included in the 
        protected class of infrastructure of national significance. 
        Their losses would have a major impact on the nation's economy.
        <bullet> Creative border security initiatives such as Laredo's 
        ``River Vega'' project that enhance national security by 
        clearing lines of sight and building river retaining walls with 
        the result being an integrated national security project should 
        be supported.
    All other DHS and Department of Justice programs which fund first 
responders (i.e. SAFER, COPS) must be fully funded and the role a 
community plays in supporting national security must be included in the 
funding criteria.


                               Appendix C

                              ----------                              


                    Detailed Statement of Chief Sosa

                                 On The

        Challenges Facing First Responders in Border Communities

BACKGROUND
    Border Security and safety is an essential component of our 
nation's homeland security. It is a duty that we gladly and proudly 
accept each time we report for our shifts. Although our task is 
challenging, we realize its importance, for we as first responders, are 
the front line of defense for our Nation against intentional or 
unintentional threats. A sobering reality is that the number of threats 
in this post 9-11 world has increased along the US/Mexico border and so 
has the number of incidents that can potentially escalate into major 
emergencies.
    The County of Webb, in which Laredo is located, is the 6th largest 
county of the 254 counties in the State of Texas. It covers 3,360 sq. 
miles or 2,139,217 acres. As the second fastest growing city in the 
nation, Laredo has outgrown its boundaries. The City of Laredo, thru a 
contractual agreement, provides emergency services to all of Webb 
County. The County of Webb has 4 cities that the Laredo Fire Department 
services: Mirando City, Bruni, Oilton, and Aguilares. The Laredo 
metropolitan area posted the largest gain in population of any other 
city along the Texas border. Laredo has an approximate population of 
250,000 residents and its sister city, Nuevo Laredo, Mexico, has a 
population of 600,000 residents.
    While all local governments have security issues, border 
communities have special challenges. Consider Laredo, Texas, the 
largest land port in the United States for people and goods arriving 
from Central and South America. Every day, 13,000 trucks bring parts 
and supplies across the border, and 30,000 people cross its four 
bridges, a process that takes one and one-half hours on a normal day.
    Our frontier community is a booming one, having doubled its 
population in the past 10 years, from 100,000 to more than 200,000. 
Nuevo Laredo, our sister city across the border in Mexico, has a 
population of 600,000. During a serious emergency, the closest support 
from any U.S. locality, state government, or federal government agency 
is 150 miles away. An existing binational aid agreement between Laredo 
and Nuevo Laredo includes an understanding of hazardous-materials 
responses, bomb threats and SWAT tactics among other public safety 
disciplines. Historically, the aid provided has been to assist Nuevo 
Laredo emergency agencies to properly mitigate threat in our sister 
city. Also we experience an average of three or four bomb threats each 
week at our international bridges.

CHALLENGES
    In outlining Laredo's role on the border, it is important to answer 
the question that many of you have: Why should federal resources be 
used to support what are typical services provided by every local 
government as well as other special services that may not be typical to 
other jurisdictions? Listed below are two reasons why:

A. International
        <bullet>Largest and Oldest Southern Inland Port
    Laredo is at the center of the primary trade route connecting 
Canada, the United States and Mexico. We are the gateway to Mexico's 
growing industrial complex. Los Dos Laredos (The Two Laredos) are 
actually one city, divided only by a river. Laredo became the first 
``official'' Port of Entry on the U.S./Mexico border in 1851. (In fact, 
the United States Consulate in Nuevo Laredo, Mexico is America's oldest 
continuously active diplomatic post, established in 1872.) Today, the 
Laredo Customs District handles more trade than the ports of Southern 
California, Arizona, New Mexico and West Texas combined.
        <bullet> Services We Provide Laredo and Nation
    The City of Laredo provides its local citizens and the nation a 
comprehensive public safety and public health response to threats at 
the border. Laredo provides:
        <bullet> A unified approach of police, fire and public health 
        first responders to ensure safety, security and public health 
        disease control and preparedness.
        <bullet> Training, planning and support for disease control and 
        prevention through its public health authority.
        <bullet> Support for our federal and state partners in 
        responding public health and safety hazards challenges such as 
        primary response for river rescue and recovery as well as 
        response to bomb threats at our international bridges to 
        conduct searches for weapons of mass destruction.
    Despite Laredo providing these national defense services, Laredo is 
not a direct beneficiary of any of the new DHS programs because federal 
funding for homeland security has been limited to US census data. 
Funding formulas must be changed to address threat levels and services 
provided to the nation by border communities. Laredo is providing the 
services. It is time that the nation provides Laredo with a fair share 
of the resources needed for these efforts. Additionally, we would like 
to mention some of the other challenges we face along the border:

        B. Domestic
    The City of Laredo is a hub for emergency response with assets and 
expertise to manage emergencies in a 150 mile radius. The City has 
executed mutual aid agreements with several jurisdictions to offer aid 
in the event they should be needed. Local resources could be quickly 
exhausted should there be a need to respond to a major emergency. As a 
Border community we face a wide variety of threats given our strategic 
location and as such we must recognize that emergencies in our sister 
city could lead to a potential emergency in ours.

        <bullet> Structure fires
    With 60 million square feet of warehouse space to protect on our 
side of the border, we must consider the vast amount of warehouse space 
to the south. The limited means of our counterparts puts our community 
at risk should a fire in their commercial/warehouse districts become 
uncontrollable. An existing bi-national agreement with Nuevo Laredo 
would require our fire department to render aid.

        <bullet> EMS
    Laredo Fire Department Emergency Medical Services (EMS) responded 
to close to 17,000 calls in 2006. Many of these were responses to our 
international bridges to render aid to patients coming in from Nuevo 
Laredo. The patients arrive to our bridges via personal vehicles or by 
foot. Additionally, many attempts by foreign nationals to cross our 
borders illegally generate a response by our EMS system to render aid 
in the hostile terrain that surrounds our community. These patients 
become dehydrated or suffer trauma while attempting to cross via rail 
car or by vehicles transporting illegal aliens that are involved in 
accidents.

        <bullet> 1Mass casualty incidents
    In addition to offering protection to our community from mass 
casualty incidents, we consider other factors that increase the 
potential for these types of incidents. A major corridor named IH35, 
passes through our city and so does a tremendous amount of traffic. 
This includes passenger buses as well multi-occupant vehicles. This 
highway is also a major thoroughfare for the transportation of illegal 
aliens. Many times while chased by law enforcement, these vehicles 
become involved in accidents with as many as 50 people. Recently, the 
fire department was called to assist a neighboring border county, 
Zapata, when a passenger van transporting 50 aliens rolled over killing 
one. This incident placed a significant burden on our resources as 
several ambulances were dispatched to assist, render aid and transport 
the injured back to local hospitals.

        <bullet> HAZ-MAT Incidents
    Laredo is the main NAFTA corridor for the United States and 
correspondingly in Texas for international trade. Laredo has four 
International Bridges and is currently in the process of applying for a 
Presidential Permit to build a fifth International Bridge. Laredo 
carries 50% of all NAFTA related trade. It is further estimated that 
fifty percent of the trade that crosses through Laredo is hazardous 
material. The United States, Mexico, Central and South America's 
economies depend on secure bridges (the artery through which life flows 
for the business-trade sector). Terrorist actions or any disruptive 
situations would be detrimental to local, state, national and 
international economies. According to Laredo Development Foundation's 
2001 data, Laredo is the number one inland port in the United States 
with 2,772,537 annual tractor-trailer crossings and an additional 
350,620 rail car crossings through our single railroad bridge. Almost 
half of the cargo that travels through the Laredo Corridor by land and 
rail carry Hazardous Materials. The Laredo Airport, a former U.S. Air 
Force Base, had 226 million pounds of freight land in 2001.
    The situation our community faces today is the increasing volume of 
commercial traffic with hazardous cargo passing through our city via 
road and rail. In addition, we are experiencing an expansion of 
commercial warehousing that store the hazardous materials transported 
by commercial traffic. This reflects an increase for calls our 
department makes to hazmat incidents.
    Of note are recent emergency calls that posed a threat to our 
community and contained all of the necessary elements to escalate to a 
major disaster.
        <bullet> A tractor-trailer overturned on Hwy 359 spilling a 
        significant amount of highly toxic sodium hydroxide. The 
        highway was closed for several hours. Prevailing winds 
        threatened to carry fumes towards the City.
        <bullet> A tractor-trailer was found to be leaking an unknown 
        chemical. The trailer contained several pallets of AG Oxycom, 
        an oxidizer corrosive that causes irritation of the respiratory 
        track when inhaled.
        <bullet> A train derailment caused several boxcars containing 
        petroleum alkalate and benzene 10% to burn exposing one boxcar 
        with tetrachchloroethylene. Residents in the immediate area 
        were evacuated. Wind conditions threatened to carry fumes 
        towards a populated area.
    There is also the challenge of rail yards in the midst of a heavily 
populated area of town. These boxcars transport a huge amount of cargo 
throughout the day at the risk of derailment.
    All these numbers translate into a single conclusion: Laredo's Fire 
Department must be prepared to address a hazmat challenge due to the 
volume of Hazmat cargo, commerce, and tourism present on both sides of 
the border. Data compiled from the U.S. Department of Commerce 
indicates that in 2004, the total share of U.S.-Mexico trade passing 
through the port of Laredo was 58.9%. All other ports on the U.S.-
Mexico Border totaled only 41.1%. This commercial traffic has only 
increased over the past decade as more commerce is utilizing the Port 
of Laredo's strategic location. The significant increase has offered 
many opportunities for the potential of a major hazardous material 
incident that would affect the lives of many families on both sides of 
the border as well as those that reside in the surrounding communities. 
Additionally, Laredo has over 60 million square feet of warehouse space 
and at least a quarter of that space contains hazardous materials and 
is highly vulnerable to Terrorism and Bio-Chemical Terrorism.

        <bullet> River Rescue and body recoveries
    The Laredo Fire Department is the primary responder to river 
rescues and body recoveries along the Rio Grande. As the increase in 
attempts to cross our border illegally so do the number of rescues and 
recovery of drowning victims. We lack the equipment and training to 
safely conduct these services on international waters.

        <bullet> Bomb Threat at bridges
    911 Dispatch receives on average 3 bomb threats a week to our 
international bridges alone. The Fire Department responds to these bomb 
threats and conducts a search for any suspicious packages and explosive 
devices without any protective equipment or ordinance training.

SOLUTIONS
    Homeland security is about the integration of a nation, everyone 
pledged to freedom's cause, everyone its protector, and everyone its 
beneficiary. It's about the integration of our national efforts, not 
one department or one organization, but everyone tasked with our 
Nation's protection. To accomplish this task, federal funding for 
homeland security and public health response initiatives must 
compensate local communities that are providing protection to the 
nation. The easiest way to accomplish this goal is to create a border 
category in all funding formulas.
    Additionally, we would like to respectfully submit the following 
points:
        (1) The City of Laredo has been a major contributor of 
        resources to create a regional mutual aid agreement. As the 
        largest source of assets and experience in our region, we are 
        looked to in the event of a significant emergency occurring in 
        any of the participating jurisdictions. Support and training 
        for regional preparedness is essential to our border 
        communities.
        (2) Our City has invested heavily in the creation of a state of 
        the art Fire and Law Enforcement training facility. This 
        facility has trained first responders from around the globe. 
        Students have trained here from different parts of Mexico, 
        Central and South America, Europe and Canada. Another benefit 
        to first responders from around this region is the close 
        proximity and accessibility to world class training. 
        Standardized training for public safety officials on both sides 
        of our border is essential for a uniformed response to an 
        emergency that would affect communities on the US/Mexico 
        Border.
        (3) We must be recognized as a hub for public safety and 
        homeland security for the region and for the front gate of our 
        nation. Although we are the largest community in the region 
        with public safety assets, it is important to remember that we 
        are the closest entity for emergency response in 150 miles.
        (4) UASI should be changed to make proximity to the border a 
        threat criterion and funding should be available for people and 
        equipment required to meet threats to the nation's health and 
        safety. Laredo provides more public health responders and 
        public safety responders on the border than the federal 
        government, yet it is not eligible for direct funding.
        (5) The Port Security initiative must be modified to include 
        all major ports, not simply water ports. The City of Laredo is 
        the nation's largest inland port on the U.S. Mexico border, yet 
        it is not eligible for port security funding.
        (6) International Bridges should be included in the protected 
        class of infrastructure of national significance. Their losses 
        would have a major impact on the nation's economy.
        (7) Creative border security initiatives such as Laredo's 
        ``River Vega'' project that enhance national security by 
        clearing lines of sight and building river retaining walls with 
        the result being an integrated national security project should 
        be supported.
        (8) All other DHS and Department of Justice programs which fund 
        first responders (i.e. SAFER, COPS) must be fully funded and 
        the role a community plays in supporting national security must 
        be included in the funding criteria.

CONCLUSIONS
    Laredo is the only U.S./Mexico border city strategically positioned 
at the convergence of all land transportation systems. While this 
location results in Laredo being our nation's largest inland port on 
the southern border, it also means that Laredo's public safety and 
health programs are heavily burdened with the flow of such commerce. 
Laredo is the shipping and receiving dock for the urban centers and 
seaports in your states. There are even statistics of the amount of 
cargo that flows from or returns to your states of Mississippi, 
Washington, New York, Pennsylvania, Indiana, the Carolinas, Alabama and 
beyond. Laredo and other border communities strive for healthy and safe 
communities. Sometimes we are asked to bear too large a burden in 
keeping our nation healthy and safe. We look to this committee assist 
us obtain the resources we need to meet that challenge.
    Every day, we work to make our border and America more secure. 
Every day, the memories of September 11th inspire us to live our vision 
of preserving our freedoms, protecting America, enjoying our liberties, 
and securing the homeland.


                       Appendix D: For the Record

                              ----------                              


                        Questions and Responses

Question from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

                        Responses from Bill Elfo

    Question 1.: Sheriff in your testimony you mention the need for a 
joint operations center large enough to accommodate border related 
activities. What is your current state of operations in this regard? 
How could you be better by a joint operations center? How would such a 
center assist in preparedness and response among all levels of 
government?
    Response: The Whatcom County Emergency Operations Center is located 
within a local fire station. It is approximately 1400 square feet and 
can accommodate up to fifty persons. While adequate for managing our 
typical winter storms and flooding, it is grossly inadequate in terms 
of accommodating and coordinating the number of essential local, 
county, state, federal and private sector representatives needed to 
manage major border-related emergencies and disasters. Experience and 
exercises have consistently demonstrated that we can reasonably 
anticipate the need for a multi-agency emergency operations center that 
will accommodate up to 250 people.
    The Whatcom County Sheriff's Office has primary responsibility for 
providing emergency management services at and near our land border 
with Canada. It maintains emergency management responsibilities for six 
municipalities and the unincorporated area, encompassing 2116 of the 
County's 2150 square miles, 62% of its population and all of its major 
oil refineries. The City of Bellingham Office of Emergency Management 
provides similar services within its city limits.
    The United States Department of Homeland Security, through its many 
component agencies, has a myriad of emergency management and disaster 
responsibilities at and near the border, at the refineries and at 
multiple federal facilities located throughout the County. In most 
potential border-related events, jurisdictional authority and impacts 
overlap.
    Whatcom County, the City of Bellingham and the Department of 
Homeland Security all envision the establishment of a multi-agency 
coordination center designed to coordinate and plan for the response 
and mitigation of activities impacting their spheres of responsibility. 
All of these entities share services provided through support agencies 
such as the Red Cross, the County Health Department, the County Medical 
Examiner, the City Emergency Medical System and many others. In times 
of disaster or emergency, all of these entities will need to coordinate 
requests for outside assistance through the Washington State Military 
Department.
    It is absolutely essential that the three major jurisdictions 
involved in emergency management operations closely coordinate 
activities and decision-making. Creating three separate facilities will 
be counter-productive. The establishment of a multi-agency coordination 
center will bring all critical decision-makers to one location and 
facilitate a transition into the most appropriate incident command 
structure, accommodate specific needs, and avoid confusion and 
competition for resources. It will also raise situational awareness, 
ensure clarity in communications and serve as a model for other 
communities.
    Question 2: Sheriff Elfo in your testimony you state that since 9/
11 there has been a dramatic increase in the Federal law enforcement 
presence in Whatcom County. Specifically, you state that most notable 
increases you have seen have come from Customs and Border Protection, 
Immigration and Customs Enforcement and the Coast Guard.
    Are you comfortable with the amount of intelligence information 
that is shared between these agencies and state and local law 
enforcement officials?
    Response: No. Aside from the agencies mentioned above, the United 
States Border Patrol, FBI, DEA and a number of other federal law 
enforcement agencies maintain operations in Whatcom County. The number 
of federal agents assigned to Whatcom County far outnumber, local, 
county and state law enforcement. The relationship that exists among 
these agencies and their willingness to assist local law enforcement is 
generally very good. Nonetheless, enhancements are needed in the area 
of sharing information and intelligence.

    If not, what can be done to enhance the flow of information?
    Response: Border county law enforcement agencies need to closely 
coordinate and collaborate in the sharing of information and 
intelligence relating to crimes, threats and terrorism. With border 
counties, it is essential that this information and intelligence 
sharing include issues related to the international border. Nearly all 
federal law enforcement operations in the county are border-centric and 
it is essential to the success of investigations and safety that 
efforts be coordinated.
    In the State of Washington, regional intelligence groups were 
created in various geographic regions. These intelligence groups take 
an ``all crimes'' approach to criminal intelligence. Participating 
agencies contribute personnel on either a full-time or part-time basis 
and efforts are made to provide information to those agencies that are 
unable to assign personnel on a regular basis.
    The regional intelligence group responsible for servicing our 
border county is centered in Everett, nearly 90 miles from the 
international border. Most regular participants in the group are from 
Snohomish County, which is located near the greater Seattle area. Crime 
and intelligence information is generally centered on regional issues 
related to the Seattle region and the surrounding naval facilities, 
rather than those matters having a nexus with the border. The 
activities and issues surrounding gangs, organized crime, criminal 
enterprises and terrorist organizations in the Seattle area differ from 
those occurring in our border community. Distance, priorities and 
logistics do not support the Everett regional intelligence group with 
the capacity to fully integrate border-related intelligence into its 
operations.
    A compelling need exists to integrate the activities of local, 
county, state and federal enforcement in sharing information and 
intelligence specific to border-activities. The City of Bellingham 
Police Department maintains an intelligence unit. The Washington State 
Patrol has assigned a trooper full-time to unit and the Whatcom County 
Sheriff's Office regularly participates in the activities of the unit, 
shares information and works cooperatively with joint investigations. 
Funding should be provided to grow the nucleus of this group into a 
countywide regional intelligence group to include participation from 
key federal agencies and other local law enforcement. The Department of 
Homeland Security should fund a full-time position to support this 
operation as it does for existing regional intelligence groups.
    The current formula and mechanisms for funding analyst positions 
assigned to the intelligence groups impairs effectiveness and 
efficiency. Current Department of Homeland Security regulations 
preclude the hiring of commissioned law enforcement officers for these 
positions and since funding for these positions are not sustainable, 
agencies are forced to hire independent contractors to perform 
intelligence functions. In most cases, these analysts do not know 
communities as well as local law enforcement and there is a high rate 
of turnover. As independent contractors, limits exist on the ability of 
agencies to supervise their activities. Consideration should be given 
to amending the regulations and reimburse intelligence groups for the 
cost of assigning fully commissioned law enforcement officers to each 
group. This reimbursement program could require a minimum three year 
agency assignment and be rotated among participating agencies. will 
increase support and appreciation for the intelligence function among 
affected agencies.
    It is absolutely essential that mechanisms be established to 
improve the flow of information from the Washington Joint Analytical 
Center, the Joint Terrorism Task Forces, the Regional Intelligence 
Groups and local law enforcement. When critical information or 
intelligence involving a local community is identified, a system must 
be developed to ensure that it rapidly flows to designated staff at 
potentially impacted police departments and sheriffs offices. Steps 
must be taken to ensure operational capability exists 24 hours a day, 
365 days a year.
    Consideration should be given to establishing a joint terrorism 
task force to serve border counties.
    If so, it the same true for other northern border county law 
enforcement entities in Washington?
    Response: Sheriffs in the northern border counties of Clallam, 
Okanogan and Stevens report that they do not receive adequate border-
related intelligence through the regional intelligence groups servicing 
their areas. Sheriff Thayer of Stevens County indicated that similar 
issues exist in Ferry and Pend Oreille counties. All counties maintain 
good relations with Department of Homeland Security agencies but 
generally receive relevant information through informal relationships 
rather than an established system of dissemination. Like Whatcom 
County, regional intelligence groups are generally distant from the 
border and tend to focus attention to issues in the larger cities where 
they are housed.
    Question 3.: In your testimony you highlight an issue that is often 
overlooked when discussing the challenges facing border communities. 
You state that on average over 600 persons a month seeking into Canada 
through County are denied because of mental illness or a criminal 
record. How do these individuals impact public safety in your 
community?
    This phenomenon is commonly referred to as ``bounce-backs'' and 
occurs when Customs Canada detect persons with criminal records, mental 
illness or a lack of funds and subsequently deny them admission to 
Canada. These persons are generally directed to return to the United 
States and U.S. Customs and Border Protection officers are normally 
notified. If currently wanted as fugitives or suspected of involvement 
in criminal activity, the Sheriff's Office is normally summoned. On 
average 150 wanted fugitives from around the nation are apprehended at 
the border every year. Other cases involve a large array of crimes 
ranging from kidnapping to possession of stolen These incidents 
typically involve an investigation by the Sheriff's Office, detention 
in the County Jail and involvement by the Prosecuting Attorney, Courts 
and Public Defense.
    Aside from the obvious impact of these individuals committing new 
crimes in our community, their presence represents a drain on scarce 
local law enforcement and mental health resources. A jail designed and 
staffed to hold 148 inmates, now maintains an average daily population 
of over 270. Prosecutors have enormous caseloads and our mental health 
system is challenged to provide adequate service levels.

    Question 4.: In your testimony you talk about the work between 
local law enforcement and the Customs and Border Protection Officers to 
detect criminals and other contraband crossing the international 
border. How do you work together, share information and communicate?
    Most communications and information sharing occurring between local 
law enforcement and Customs and Border Protection are the result of 
personal relationships and informal systems that have existed for 
decades. A deputy sheriff assigned full-time to the Customs and Border 
Protection Air and Marine Unit successfully coordinates information 
sharing. Management personnel Customs and Border Protection and 
Immigration and Customs Enforcement regularly attend meetings of the 
County Police Chiefs and Sheriff Association resulting in the fostering 
of an environment amenable to cooperation. The Sheriff's Office 
provides Customs and Border Protection with a daily crime analysis 
report. The County has established an integrated data system that will 
eventually allow federal agencies to view and share data.
    While many regions of the nation are focused on radio 
interoperability, agencies in Whatcom County are in many areas, lacking 
basic operability. Operability issues must be resolved before 
interoperability can be achieved. Limited interoperable communications 
are achieved through a patchwork of systems but are not dependable and 
often are not available when they are most needed.
    Terrain, infrastructure and agreements with the government of 
Canada limit options. The County is exploring the feasibility of using 
satellite technology to increase communications coverage. This platform 
and technology has the capability of solving both operability and 
interoperability issues.

                   Follow-up Questions and Responses

Questions from the Honorable Bennie G. Thompson, Chairman, Committee on 
Homeland Security and the Honorable Henry Cuellar, Chairm, Subcommittee 
        on Emergency Communications, Preparedness, and Response

                 Responses from Christopher H. Lombard

    Thak you so much for the opportunity to further dialogue with you, 
following my testimony on July 12, 2007, before the Subcommittee on 
Emergency Communications, Preparedness, and Response. I am happy to 
answer your follow-up questions.
    Question 1.: Chairman Thompson, you have asked the following: Mr. 
Lombard, in regards to training you discuss in your testimony the need 
for continued support on the regional and international level that 
include backfill and overtime coverage for first responders. Currently, 
does the need for backfill and overtime coverage affect your attendance 
for training exercises? How does this affect the day to day operations?
    Response: In a word, Yes! The need for backfill and overtime has a 
significant and direct impact on our ability to attend all but the most 
basic training exercises.
    For the fire service, the issue of training essentially comes down 
to one of resource allocation. Various national standards (e.g. NFPA 
1710), and Standards of Care dictate our response times. The emergency 
response times of the fire service, from dispatch to arrival on-scene, 
are measured in minutes.
    For a typical house fire, it only takes minutes before something 
like a simple smoldering cigarette can become a raging inferno. Or, as 
is the case in medical incidents like heart-attacks and strokes, we 
have about six minutes to get oxygen flowing back to the brain (from 
the onset of the condition) before permanent brain damage or death 
occur. These physical time limits have profound impacts on the 
uniformity of coverage and the in-service status of fire and EMS 
resources.
    When we do place resources out of service for training, the 
resulting `coverage area' of surrounding units expands to fill in the 
gaps. Too many units placed out of service and response times increase 
allowing situations to reach extreme portions, jeopardizing safety of 
both victims and responders. The bottom line of this reality directly 
impacts our ability to provide on-duty training.
    In an effort to provide the most accurate and up-to-date answers, I 
contacted colleagues with some of the larger fire departments in the 
nation: my own Seattle Fire Department, FDNY, Chicago Fire, LA County 
Fire, LA City Fire, etc. All were able to confirm the same. In the fire 
service we tend to go about as far as placing 6% of our total on-duty 
units out of service for training purposes. Any more units out of 
service could mean that someone dies because it takes too long to get 
to their aid.
        Fire/EMS training generally falls into three categories:
        1. Required training (e.g. that which is legally required by 
        OSHA, State plans, etc.)
        2. Essential training (e.g. that which assures an acceptable 
        level of service--NFPA, DHS, NIMS, etc.), and
        3. Desired training (e.g. terrorism prevention, mutual aid 
        exercises/regional drills, etc.).
    At best, the 6% `units-out-of-service' level referenced above 
barely allows for the maintaining of our required training 
requirements. Thankfully, the federal grants, especially those within 
the Homeland Security Grant Programs, that have recently made available 
(e.g. UASI, MMRS, etc.) are helping to improve the access to 
`essential' levels of training. It has only been through these grants 
that large regional training exercises have been able to occur.

    Questions #2 and #3
    Congressman Cuellar, you asked two excellent questions that strike 
to the very heart of the philosophical way in which most of the United 
States views incident management. In an effort to better answer your 
questions, I offer a little background on the way we, in the United 
States, have traditionally managed significant incidents. I am 
referring to the `prevent' AND `prepare' mentalities or aspects.
    We understandably invest a great many resources in trying to 
prevent bad things from happening before incidents occur (i.e. crisis 
management). That being said, with the exception of the military, we 
allocate disproportionately fewer resources in preparation for actual 
incident mitigation, (i.e. consequence management). As a result, and 
because of the lack of appropriate pre-incident planning, we are often 
forced to pay vastly more towards recovery, after the fact. These are 
all facts that are realized all too well by the insurance industry and 
their subsequent discounting for things like car alarms, living close 
to a fire station/hydrant, burglar alarms, sprinkler systems, etc.
    As a case in point, most every single county/parish in the United 
States can claim at least one paid law enforcement officer, whether it 
is a single paid sheriff or thousands of city, county/parish, state and 
federal officers within a single county. If the idea of a bake sale, 
car wash, or cook-off occurring somewhere in the nation to help replace 
your local police car, or to buy bullets and guns for police sounds 
strange, there is reason. But, for the nation's fire and EMS services, 
the opposite is true. As an article in USA Today observed, ``. . 
.almost three-fourths of the nation's 1.1 million firefighters are 
volunteers, and two-thirds of all fire departments are volunteer. . .'' 
\1\ The Seattle area is not immune from this disproportion. Quite the 
contrary, the situation is fairly consistent throughout the nation.
---------------------------------------------------------------------------
    \1\ 11/07/2005 (USA Today article by Rick Hampson--http://
www.usatoday.com/news/nation/2005-11-06-volunteer-firefighters_x.htm)
---------------------------------------------------------------------------
    At the expense of stating the obvious, despite all of our efforts 
at prevention, incidents do, and will continue to occur--human nature 
and interaction with our environment dictates that we are always going 
to have car crashes, house fires, hurricanes, earthquakes, tornados, 
wildland fires, bombings, etc. Hence the importance of simultaneous 
prevention AND preparation.
    I will expound more on this later, but to relate this to your 
questions on communications operability and preparation for the 
Olympics, we the State and DHS are making great strides in prevention 
efforts (crisis management) but doing relatively little about response/
recovery efforts (consequence management).
    To answer to your first question, ``As illustrated by Hurricane 
Katrina and 9/11, first responders oftentimes cannot effectively 
communicate with one another. Secretary Chertoff has told this 
Committee in the past that you cannot have interoperable communications 
without operable communications. That said (do) all of the first 
responders in the Seattle area have the basic level of equipment (to 
be) operable,'' I offer the following.
    As alluded to previously, there are differences between the 
operability and interoperability communications for Seattle area police 
and fire/EMS departments. First, relating to voice communications, the 
region's fire/EMS agencies have marginal operability. Every day we 
respond to several situations (e.g high rise buildings, ship holds, 
hospital basements, etc.) where we do not have basic operability 
between units and their respective field supervisors. Further, unlike 
our police counterparts, we only have enough radios to outfit our on-
duty compliment. For large events and incidents, where we recall off-
duty members back into service, we end up having members go without 
radios; compromising their safety and efficiency. Seattle is similar to 
most of the fire service in that our equipment levels and operability 
could be termed, ``only just.'' Portable radios are only part of the 
equation.
    For both police and fire/EMS, Seattle's supporting infrastructure 
is approaching 15 years old--young in the national perspective, yet old 
in system terms. Our provider, Motorola, has already given us an end-
of-life date starting in 2009, after which they will no longer support 
or maintain our system. We have tried to plan for this eventuality 
through the use of subscriber fees, but the fees have not been able to 
keep up with recent estimates for replacement costs. As with the 
portable radios, infrastructure components usually work during normal 
operations, but when things are not normal. . .you get the picture. I 
mention this not because we are seeking federal funding for the system 
replacement, but because replacement will take most all of our local 
resources. It is the expansion of the systems to achieve 
interoperability with others (Federal entities, International entities, 
etc.) that are beyond our current ability to fund.
    If the current state of voice communications sounds bleak, then it 
is even more so for data communications. For data, we are only starting 
to work towards the operability you reference. Through our fire/life 
safety inspection programs, many departments collect a vast amount of 
information pertaining to data like building blueprints, special 
occupants needs, special building and area hazards, emergency contact 
information, sprinkler/alarm systems, water/hydrant supply information, 
pertinent medical information for patients, and more. Regrettably, even 
though this information is collected, few departments are able to do 
much with these records or to get this information from the stations 
and databases where it is stored, back out to the field where it is 
needed (to mobile computers in the apparatus, in command vehicles, 
etc.).
    Many departments, ours included, do not have adequate resources to 
build, manage and maintain our Information Technology (IT) support 
systems (including: staffing, supporting data communications 
infrastructure, hardware, etc.).
    Your second question asked, ``Given the focus of your expertise and 
the upcoming 2010 Winter Olympics, what is currently being done to 
train and prepare the first responders in the region on communications 
protocols? Are you fully staffed to address the communications needs in 
the region? What equipment is already in place and are (the) public 
safety agencies properly trained to handle the equipment? What 
redundancies are build into the system if it (becomes) overloaded or 
worst case, fails?''
    Response: Again, you bring up several excellent questions and I 
will try to answer them in the order you asked them.
    The problems relating to preparation for the 2010 Olympics go far 
beyond a request for funding related support. To date, in the whole of 
the planning process for the 2010 Olympics (either at the state or the 
federal levels), the lack of inclusion of the fire service, EMS, 
hospitals and other agencies could be considered a major oversight. 
And, it is not for a lack of having expertise to offer and wanting to 
be involved on our parts.
    Again, in an effort to provide you with the most accurate 
information to your follow-up questions, I contacted several western 
Washington Fire Chiefs. Most knew of the existence of a planning 
process and were able to identify one or two of the agencies involved, 
but none knew of any fire/EMS/hospital involvement. It was only through 
my inquires, to provide the most accurate answers to your follow-up 
questions, that I was even able to find out specifics relating to the 
Olympic planning process.
    These planning shortfalls are not unique to the State of 
Washington, but are typical of most major incident planning throughout 
the United States (again, as confirmed with interviews with members of 
FDNY, the Chicago Fire Department, Seattle Fire Department, Los Angeles 
City and County Fire Departments, etc.).
    The region's fire/EMS services have staffing and well trained 
planning and communications experts to offer toward the Olympics 
effort, but we are finding it difficult to gain inclusion in the 
process. Because of our communications expertise, we have access to all 
manner of redundancies and back-ups, but they will likely not be 
included--again, planners have demonstrated that they are unaware of 
their existence.
    Were the Olympics occurring in the United States, there would be 
considerable funding and/or funding mechanisms available to offset the 
costs associated with hosting such an event. Unfortunately, because the 
venue is just outside of the US, little funding exists (save that which 
is locally provided by either entities within the region or by the 
state)--yet the expenses remain.
    Pertaining to this specific elevated-risk event, there is good news 
and bad news. The bad news is that our region is going to have to make 
due with available resources. Fortunately, the good news is that the 
issues you raise go beyond just the Olympics and, as such, we are 
starting to address them in an effort to meet long-range regional 
goals. Resolving some of our current day-to-day needs will coincidently 
better position us to handle this, and other major events.
    The recent DHS' Report to Congress on the 2010 Olympic and 
Paralympic Winter Games, provided an impressive analysis and summary of 
pre-planning for the security for the events (e.g. discussions 
pertaining to Customs and Border Patrol (CBP). The DHS report 
anticipates that, during the two Olympic events, an additional half-
million visitors will transit through the Western Washington area. 
Further, the report mentions the impact this will have on the region's 
enforcement assets and what the affected agencies are planning to do 
about the increase.
    Ironically, there was no mention pertaining to anything about 
training, funding and/or pre-staging of any kind of response (fire, 
EMS, hospital, etc.) assets. Despite the planned 500,000 additional 
visitors, it can only be assumed that the folks among the local fire 
department's (North Whatcom Fire & Rescue) 35 firefighter/EMTs and 
supporting volunteers will try to operate--business as usual. By 
comparison, the Seattle Fire Department has almost 1,200 personnel to 
serve a city of just over a half-million.
    For major events like the Olympics, the problem tends to be one of 
getting information to those who will need it most, when they need it--
in this case, the operational personnel in the field. You may recall 
elements from the testimony of my fellow panelists, Fire Chief Sosa 
(Laredo, TX) and Sheriff Bill Elfo (Whatcom County, WA)--we are not 
looking for everyone, in every agency, and at every level being able to 
talk amongst each other, but it is essential that supervisory personnel 
are able to inter-communicate.
    What typically happens in preparation for an event such as the 
Olympics is that a particular agency will be designated as the lead 
agency. Because of funding limitations, the lead agency usually only 
assigns an individual, or a couple of individuals to oversee the whole 
event. They then establish a list of other agencies that they think 
might have a vested interest or may have the potential to be involved 
in any incidents. These other agencies, with vested interests, may 
participate as best they can, on a voluntary basis.
    The lead agency, often a law enforcement entity, will begin a 
series of planning sessions on how the incident will be managed. 
Regrettably, the communications components and contingencies are 
focused on law enforcement needs.
    Finally, a table-top `type' exercise for senior administrators may 
occur and `the plan' will then be distributed. Ultimately, those who 
need the information the most usually never get it. The problem is one 
of completing the final component of the circuit.
    Regarding your question about redundancies, we as a region have 
discussed, but do not yet have much in the way of redundancies. Our 
regional communications systems would most likely break down and fail 
back to their current, localized sites/zones.
    Regrettably, it is likely that not even Congress can resolve some 
of the problems surrounding events like these. Many of the issues 
surrounding the Olympics and events like it (not just near the borders, 
but throughout the nation) are inherent to some of the differences 
between the culture of the fire service and the culture of law 
enforcement.
    Appropriately, and by the nature of their work, the law enforcement 
community tends to be less than `open' about the information they 
share. Information exchange tends to be kept to a minimum (as needed, 
when needed, only with those who are needed, and only that which is 
needed). For obvious reasons, this is essentially the case to allow for 
their investigations, criminal prosecution, etc. Unfortunately, this 
does not lend itself well to the mitigation of major region-wide or 
national incidents where prompt and open communications are essential 
to success.
    In somewhat of a generalization, interoperable communications for 
police typically means ``police talking to police.'' (e.g. The city 
police officer being able to talk to the county sheriff, talking to the 
state patrol officer, taking to the federal agent/marshal, etc.) 
Interoperable communications for the fire service means ``any first 
responder who needs to, talking to any other first responder.'' (e.g. 
The fire fighter talking to the police officer, the police officer 
talking to the transportation coordinator, the EMS responder talking to 
the hospital, etc.)--referencing SAFECOM's definition.\2\
---------------------------------------------------------------------------
    \2\ http://www.safecomprogram.gov/SAFECOM/interoperability/
default.htm
---------------------------------------------------------------------------
    As a case in point, many fire/EMS agencies throughout the nation 
have only limited and restricted access to the DHS mandated Tactical 
Interoperable Communications Plans (TICPs), of which they are expected 
to be a part. (e.g. ``I want you to call so-and-so, but I'm not going 
to give you his number!?!'') Further, most fire/EMS agencies had only a 
marginal role, if any, in the development of regional TICPs, defeating 
the concept of Interoperability.
    As we have learned through the national implementation of NIMS/ICS 
and through actual events (e.g. Oklahoma City Bombing, 9-11, Oakland 
Hills fire, etc.), the fire service tends to have more of the expertise 
and open exchange of information necessary to manage large scale 
operations (including the planning, logistics and communications 
components). This is again because of our inherent openness regarding 
communications and inclusion or other services. It is largely in part 
to our traditional openness in communications, that has led the fire 
service's operational model (the Incident Command System--ICS) to 
become the national standard.
    Here is where congress CAN make a difference.

What is working?
        <bullet> The 9-11 legislation changes allowing for 
        communications equipment outside of the 700MHz frequencies.
        <bullet> The allowance for using federal grants to purchase 
        `operability' equipment as well as interoperable equipment.
        <bullet> The very fact that you are showing an interest has 
        created dialogue opportunities locally, for fire/EMS--as with 
        the 2010 Olympics, we are finding out about on-going projects 
        and initiatives that we were not privy to before.

    Additional ways Congress can help?
    Offered here are some potential `policy changes,' using existing 
funding/allocations, that have the potential to improve first 
responders' communications operability and interoperability (versus 
new/additional expenditures).
        <bullet> Assure that federal grants continue to address all-
        hazards and include both aspects of public-safety (e.g. Instead 
        of being equally applicable to both law enforcement and fire/
        EMS, the DHS-CEDAP grants are tending toward law enforcement 
        specific. The DHS-UASI grants too, are tending from `both 
        police/fire' toward `law enforcement,' etc.)
        <bullet> Consider legislating equal representation of 
        prevention (law enforcement) AND response management (fire/EMS) 
        agencies into pre-incident planning (e.g. The DHS/Washington 
        State 2010 Olympic Planning Committee has only a single listed 
        fire/EMS/hospital representative, out of the almost 100 listed. 
        This neglects the importance of preparation for consequences.).
        <bullet> Emphasize that Fire and EMS services need to be an 
        equal partner in DHS Special Events Working Groups--it almost 
        seems self-evident that this should be the case, but reality is 
        far from the case.
        <bullet> Continue to assist with the backlog and/or 
        prioritization of security clearance (Secret, Top Secret, etc.) 
        screening. Within the large backlog, there are a few 
        representatives from the fire and EMS communities. While there 
        are only a relative few requesting/needing clearances, they 
        speak for, and represent the majority of consequence 
        management. This lack of individuals with appropriate 
        clearances is often a reason given for excluding fire/EMS from 
        incident pre-planning.
        <bullet> For improved interoperable communications:
                <bullet> Consider requiring the State Department create 
                an office of first-responder/public-safety liaison or 
                inter-agency communications. The intent of such an 
                office being the ability for police/fire/EMS agencies 
                (in regions like San Diego--CA, Laredo--TX, Seattle--
                WA, etc.) to fast-track international issues pertaining 
                to public safety and/or to quickly get status updates.
                <bullet> Support efforts by SAFECOM and the NIMS--IC to 
                develop and consolidate the range of necessary 
                training, credentialing, and certifications for the 
                people necessary to manage incident communications. 
                (ref: COML related projects)
        <bullet> For the 2010 Olympics:
                <bullet> Encourage mobilization of the FEMA 
                Propositioned Equipment Pod--Package on Demand (PEP-
                POD) to a location nearer to the border. (As was done 
                in the Salt Lake City area during the 2002 Winter 
                Olympics.)
                <bullet> Engage the National Interagency Fire Center 
                (NIFC)/National Interagency Coordination Center (NICC) 
                in Boise, ID. They have planned and managed multi-
                state, supra-regional incidents more often and far 
                larger than the Olympics are planned to be. In addition 
                to expertise and other resources, they offer one of the 
                largest communications equipment caches in the nation.
                <bullet> Engage the local FEMA Mobile Emergency 
                Response Support (MERS) unit, located in the Puget 
                Sound region, near FEMA's Region--X offices, in 
                incident pre-planning. They also have personnel and 
                equipment able to support most all aspects of large 
                incidents.

Questions from the Honorable Bennie G. Thompson, chairman, Committee on 
                           Homeland Security

                  Responses from Lessa Berens Morrison

    Question 1.: Ms. Morrison, your testimony mentions bi-national 
exercises involving hundreds of Arizona and Mexican firefighters, 
medical responders and law enforcement officers who work along the 
border to test cross-border interoperability.
        <bullet> What was the genesis of these exercises?
        <bullet> Have they been successful?
        <bullet> Are these exercises funded with local, state or 
        federal funds?
    Response:
    The State of Arizona has a strong historical working relationship 
with the Mexican State of Sonora. Since 2003, the State of Arizona has 
included Sonora in our statewide full-scale exercises. However, border 
communities have participated in bi-national exercises prior to 2003.
    The Mariposa Point of Entry (POE) exercise occurred for one week in 
November, 2003. Mexican, U.S. federal, state, and local agencies 
gathered to evaluate their ability to respond to, recover from and 
mitigate against a Weapons of Mass Destruction (WMD) exercise. The 
simulated explosion gave the State the ability to assess bi-national 
intelligence sharing, interoperability of statewide communications 
systems, interaction of local management activities utilizing emergency 
plans and guidelines, and Arizona's Metropolitan Medical Response 
System (MMRS).
    In November 2004, Operation REACT (Readiness Exercise Assessing 
Cyber Terrorism) simulated a terrorist attack on the lower Colorado 
River flood control infrastructure and a simultaneous attack on a 
Veterans' Administration hospital. In addition, the flood gates were 
explosively opened (simulated) at Davis and Parker Dams creating a 
surge of water flowing down the Colorado River consistent with 
historical flooding.
    Both exercises were very successful and involved the active 
participation of U.S. and Mexican governmental agencies. Arizona's 
strategic goals and objectives were met and key areas for future 
development and improvement were identified.
    While these two (2) exercises were funded with U.S. Homeland 
Security Program Grant funds, other exercises have been conducted with 
funding from local and state monies. Some of these border community 
exercises were:
        <bullet> March 2004--First Responder hazardous materials 
        exercise Nogales, Sonora, Mexico at Maquiladora 
        Grupochamberlain;
        <bullet> December 2004--Union Pacific Rail Car hazardous 
        materials drill in Nogales, Arizona;
        <bullet> October 2005--Santa Cruz Emergency Management in 
        conjunction with Holy Cross Hospital in Nogales, Arizona 
        exercised a small pox incident;
        <bullet> July 2007--Pandemic Flu (H5N1) Full Scale Exercise in 
        Santa Cruz County, Arizona;

 Questions from the Honorable Henry Cuellar, Chairman, Subcommittee on 
          Emergency communications, Preparedness, and Response

                  Responses from Lessa Berens Morrison

    Question 2.: In many areas along the U.S.-Mexico border, federal 
law enforcement has a significant presence in Southwest border 
communities. In rural communities, Border patrol agents often far 
outnumber the number of local police, county sheriffs, or state public 
safety officers. In times of crisis, these federal personnel are often 
pressed into service as first responders. For instance, during severe 
flooding in El Paso, Texas last summer, Border Patrol agents and 
military personnel rescued motorists from flooded vehicles and helped 
shore up levees.
        <bullet> While this assistance is clearly invaluable, what 
        coordination challenges do these incidents present?
        <bullet> Are there ongoing efforts to help ensure that 
        coordination is facilitated in times of crisis, and if so what 
        are they?
        <bullet> To what degree are there set procedures for 
        coordination at the local, state, and federal level, and to 
        what degree is it up to individuals to forge relationships with 
        their counterparts at other levels of government?
    Response: Border Patrol agents have been valuable assets in public 
safety and criminal emergencies throughout their primary assigned areas 
in Southern Arizona. A highway patrol officer and a border patrol 
officer are often present on scenes to assist each other. The most 
common scene is a critical vehicular collision. Coordinating the assets 
during emergency operations is effectively done with proper incident 
command.
    The largest challenge continues to be the lack of immediate 
interoperable communications, which plagues public safety agencies 
regardless of assignment. Responding agencies cannot communicate via 
the same radio system; therefore, relays with dispatchers are required 
from agency to agency in order to patch through communications. This is 
time consuming and in an emergency situation, seconds are vital.
    Common efforts to ensure coordination include post-incident reviews 
when lessons are learned about better coordination and response. An 
example of pro-active coordination planning has been recent meetings to 
forge plans with federal (Border Patrol), state, county and local 
agencies to prepare for what to do in the event of border violence 
spilling over into Arizona. The Border Patrol and other federal 
agencies are also regular partners in various local/county law 
enforcement management boards/groups that meet on a regular basis in 
each county. Those groups exist to share information and review 
incidents and plan for future coordinated efforts.
    In regard to emergency management, if the incident occurs at the 
local level it remains at the local level until all assets at that 
level are utilized. Once that occurs, the local jurisdiction relies 
upon county, followed by state, followed by federal assets. This 
procedure is standard in local, county, state, and federal plans and 
procedures. Many of the smaller jurisdictions on the Arizona/Mexico 
border have built solid working relationships within their fire, 
police, and emergency management communities on both sides of the 
border, to include federal agencies located in the area. Some of the 
border jurisdictions have ``sister city'' agreements in place which 
assist in forging solid working relationships.

    Question 3.: Ms. Morrison, as we all know, actionable and timely 
intelligence and information is the first step in working to prevent 
and respond to a threat or incident. In your testimony you mention the 
partnerships your state has formed with California, New Mexico, and 
Texas and the expansion of the Arizona Counter Terrorism Information 
Center that includes local law enforcement from the border counties.
        <bullet> Can you please provide more details on the 
        partnerships with your surrounding border states?
        <bullet> And how do you include the local law enforcement in 
        the Arizona Counter Terrorism Information Center--how are they 
        funded and how is participation coordinated?
    Response: Our fusion center, the Arizona Counter Terrorism 
Information Center (ACTIC) has intelligence analysts, law enforcement 
detectives and public safety personnel assigned from federal, state, 
city and county law enforcement and public safety agencies. These 
individuals have formed both professional and personal relationships 
with their counterparts in the other three southwest states and 
elsewhere throughout the United States. Personnel from other 
Intelligence Fusion Centers, the El Paso Intelligence Center (EPIC), SW 
Border HIDTA Intelligence Support Centers, state and federal Department 
of Homeland Security and Rocky Mountain Information Network (part of 
RISS) in California, Texas, and New Mexico, regularly contact ACTIC 
personnel to provide timely and actionable information and 
intelligence. This is done by electronic and telephonic means as well 
as through various publications.
    Additionally, the Border Governor's Conference attendees 
established various subcommittees, including the Border Security Work 
Table, which has representatives from all four of the Southwest Border 
States and six of the bordering Mexico states. Information and 
intelligence from these meetings and, as circumstances necessitate, is 
funneled to the ACTIC.
    The ACTIC has established a Terrorism Liaison Officer (TLO) program 
that is comprised of 143 TLO's from 66 different law enforcement and 
fire departments in Arizona. These TLO's coordinate with the ACTIC to 
``push'' out information and intelligence to their communities, public 
safety agencies, businesses, and governing bodies as well as to serve 
as collectors of information and intelligence from these same entities 
to provide to the ACTIC.
    The ACTIC relies on several funding sources--federal, state, and 
local. Agencies who send personnel to TLO training and who have 
personnel assigned to the ACTIC make in-kind contributions for the 
salary and benefits of those personnel. The specialized equipment 
utilized by the TLO's is funded via a federal DHS grant, the Law 
Enforcement Terrorism Prevention Program (LETPP) and is coordinated by 
a TLO Director, housed at the ACTIC. Without all of these funding 
sources, the ACTIC would not be able to sustain its operation.

                                 <all>

</pre></body></html>
